APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Judgment of the Federal Circuit
(February 6, 2019) .............................................. 1a
Mandate of the Federal Circuit
(April 17, 2019) ................................................... 3a
Order of the Federal Circuit Denying Appellants
Motion to Take Judicial Notice
(June 1, 2018) ..................................................... 5a
Order Granting Motions for Summary Judgment
(December 13, 2017) ........................................... 8a
Judgment of the District Court
(December 13, 2017) ......................................... 17a
Opinion of the Federal Circuit
(March 3, 2017) ................................................. 20a
Final Judgment of the District Court
(November 13, 2015) ........................................ 38a
Order Adopting Magistrate Judge’s Report and
Recommendation (November 9, 2015) ............. 42a
Magistrate Report and Recommendation on Claim
Construction (September 22, 2015)................. 45a
Order of the Federal Circuit Denying Petition for
Rehearing En Banc (April 10, 2019) ................ 62a

APPENDIX TABLE OF CONTENTS (Cont.)

CONSTITUTIONAL AND STATUTORY PROVISIONS
Constitutional and Statutory Provisions ............... 64a
Patent Act of 1836, 24 Cong. Ch. 357, 5 Stat. 117
(July 4, 1836) .................................................... 76a
RECORD EXCERPTS
Brief of Plaintiff Appellant Tech Properties Ltd—
Relevant Excerpts (March 10, 2016) ............... 95a
’336 Patent File History, Examiner Interview
Summary Record (May 13, 1998) .................. 107a
’336 Patent File History, Supplemental Amendment
(April 24, 1998) ......................................................109a

App.1a
JUDGMENT OF THE FEDERAL CIRCUIT
(FEBRUARY 6, 2019)
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
________________________
TECHNOLOGY PROPERTIES LIMITED LLC,
PHOENIX DIGITAL SOLUTIONS LLC,
PATRIOT SCIENTIFIC CORPORATION,

Plaintiffs-Appellants,
v.
HUAWEI TECHNOLOGIES CO., LTD.,
FUTUREWEI TECHNOLOGIES, INC.,
HUAWEI DEVICE CO., LTD., HUAWEI DEVICE
USA INC., HUAWEI TECHNOLOGIES USA INC.,
ZTE CORPORATION, ZTE USA, INC.,
SAMSUNG ELECTRONICS CO., LTD.,
SAMSUNG ELECTRONICS AMERICA, INC.,
LG ELECTRONICS, INC., LG ELECTRONICS
U.S.A., INC., NINTENDO CO., LTD.,
NINTENDO OF AMERICA, INC.,

Defendants-Appellees.

________________________

2018-1439, 2018-1440, 2018-1441,
2018-1444, 2018-1445
Appeals from the United States District Court for the
Northern District of California in Nos. 3:12-cv-03865VC, 3:12-cv-03876-VC, 3:12-cv-03877-VC, 3:12-cv03880-VC, 3:12-cv-03881-VC, Judge Vince Chhabria

App.2a
Before: MOORE, TARANTO, and
CHEN, Circuit Judges.
THIS CAUSE having been heard and considered, it is ORDERED and ADJUDGED:
PER CURIAM
AFFIRMED. See Fed. Cir. R. 36.
Entered by Order of the Court
/s/ Peter R. Marksteiner
Clerk of Court
February 6, 2019

App.3a
MANDATE OF THE FEDERAL CIRCUIT
(APRIL 17, 2019)
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
________________________
TECHNOLOGY PROPERTIES LIMITED LLC,
PHOENIX DIGITAL SOLUTIONS LLC,
PATRIOT SCIENTIFIC CORPORATION,

Plaintiffs-Appellants,
v.
HUAWEI TECHNOLOGIES CO., LTD.,
FUTUREWEI TECHNOLOGIES, INC.,
HUAWEI DEVICE CO., LTD., HUAWEI DEVICE
USA INC., HUAWEI TECHNOLOGIES USA INC.,
ZTE CORPORATION, ZTE USA, INC.,
SAMSUNG ELECTRONICS CO., LTD.,
SAMSUNG ELECTRONICS AMERICA, INC.,
LG ELECTRONICS, INC., LG ELECTRONICS
U.S.A., INC., NINTENDO CO., LTD.,
NINTENDO OF AMERICA, INC.,

Defendants-Appellees.

________________________

2018-1439, 2018-1440, 2018-1441,
2018-1444, 2018-1445
Appeals from the United States District Court for the
Northern District of California in Nos. 3:12-cv-03865VC, 3:12-cv-03876-VC, 3:12-cv-03877-VC, 3:12-cv03880-VC, 3:12-cv-03881-VC, Judge Vince Chhabria

App.4a
In accordance with the judgment of this Court,
entered February 6, 2019, and pursuant to Rule 41 of
the Federal Rules of Appellate Procedure, the formal
mandate is hereby issued.
For the Court
/s/ Peter R. Marksteiner
Clerk of Court
April 17, 2019

App.5a
ORDER OF THE FEDERAL CIRCUIT
DENYING APPELLANTS MOTION
TO TAKE JUDICIAL NOTICE
(JUNE 1, 2018)
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
________________________
TECHNOLOGY PROPERTIES LIMITED LLC,
PHOENIX DIGITAL SOLUTIONS LLC,
PATRIOT SCIENTIFIC CORPORATION,

Plaintiffs-Appellants,
v.
HUAWEI TECHNOLOGIES CO., LTD.,
FUTUREWEI TECHNOLOGIES, INC.,
HUAWEI DEVICE CO., LTD., HUAWEI DEVICE
USA INC., HUAWEI TECHNOLOGIES USA INC.,
ZTE CORPORATION, ZTE USA, INC.,
SAMSUNG ELECTRONICS CO., LTD.,
SAMSUNG ELECTRONICS AMERICA, INC.,
LG ELECTRONICS, INC., LG ELECTRONICS
U.S.A., INC., NINTENDO CO., LTD.,
NINTENDO OF AMERICA, INC.,

Defendants-Appellees.

________________________

2018-1439, -1440, -1441, -1444, -1445
Appeals from the United States District Court for the
Northern District of California in Nos. 3:12-cv-03865-

App.6a
VC, 3:12-cv-03876-VC, 3:12-cv-03877-VC, 3:12-cv03880-VC, 3:12-cv-03881-VC, Judge Vince Chhabria
Before: MOORE, Circuit Judge.
The appellants move this court to take judicial
notice. The appellees oppose the motion or, alternatively, urge the court to defer the motion to the merits
panel.
The appellants seek review of the district court’s
final judgment granting the appellees’ motion for
summary judgment of non-infringement of U.S. Patent
No. 5,809,336. The appellants seek judicial notice of
portions of the file history of that patent, including
an October 16, 1997 office action, an April 24, 1998
supplemental amendment, a May 13, 1998 examiner
interview summary, and a May 13, 1998 notice of allowance, and for those materials to be allowed in the
joint appendix.
The appellants argue that judicial notice of the
documents is appropriate because they are public
records. The appellants point out that the issues on
appeal concern the application of the doctrine of
prosecution disclaimer to certain prior art references
discussed among the applicants and the United States
Patent and Trademark Office. While not of record, the
appellants argue that these materials provide important
context and are pertinent to a reasoned analysis of
the appeals that are being presented on appeal.
The appellees respond that judicial notice of
these materials is not appropriate in this long-standing
case because the appellants could have, but failed to,
enter the materials in the record before the trial court.
The appellees argue that the appellants want these

App.7a
excerpts in the record solely to make new claim construction arguments, which were not raised in the
prior appeal that construed the relevant claims, and
that arguments predicated on these aspects of the
file history were waived.
The court denies the appellants’ motion. Ordinarily, the record on appeal is limited to papers filed
with the district court or admitted into evidence. See
Fed. R. App. P. 10(a); Kirshner v. Uniden Corp. of Am.,
842 F.2d 1074, 1077 (9th Cir. 1988) (“Papers not filed
with the district court or admitted into evidence by
that court are not part of the clerk’s record and
cannot be part of the record on appeal.”). The court
sees no reason to depart from that rule here, particularly in light of the fact that the appellants could
have filed these materials into the record.
Accordingly,
IT IS ORDERED THAT:
The motion is denied.
For the Court
/s/ Peter R. Marksteiner
Clerk of Court

App.8a
ORDER GRANTING MOTIONS
FOR SUMMARY JUDGMENT
(DECEMBER 13, 2017)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
________________________
TECHNOLOGY PROPERTIES
LIMITED LLC, ET AL.,

Plaintiffs,
v.
HUAWEI TECHNOLOGIES CO., LTD., ET AL.,

Defendants.

________________________
Case No. 12-cv-03865-VC
Re: Dkt. No. 139
________________________

TECHNOLOGY PROPERTIES
LIMITED LLC, ET AL.,

Plaintiffs,
v.
ZTE CORPORATION, ET AL.,

Defendants.

________________________

App.9a
Case No. 12-cv-03876-VC
Re: Dkt. No. 143
________________________
TECHNOLOGY PROPERTIES
LIMITED LLC, ET AL.,

Plaintiffs,
v.
SAMSUNG ELECTRONICS CO., LTD., ET AL.,

Defendants.

________________________
Case No. 12-cv-03877-VC
Re: Dkt. No. 140
________________________

TECHNOLOGY PROPERTIES
LIMITED LLC, ET AL.,

Plaintiffs,
v.
LG ELECTRONICS, INC., ET AL.,

Defendants.

________________________
Case No. 12-cv-03880-VC
Re: Dkt. No. 157
________________________

App.10a
TECHNOLOGY PROPERTIES
LIMITED LLC, ET AL.,

Plaintiffs,
v.
NINTENDO CO., LTD., ET AL.,

Defendants.

________________________
Case No. 12-cv-03881-VC
Re: Dkt. No. 141

Before: Vince CHHABRIA, United States District Judge
The defendants’ motions for summary judgment of
non-infringement are granted.
The plaintiffs (“TPL”) stipulated to non-infringement under this Court’s prior construction of the phrase
“an entire oscillator disposed upon said integrated
circuit substrate” as used in the asserted claims of
Patent No. 5,809,336. The Federal Circuit then made
a “minor modification” to that claim construction,
holding that the proper construction of the disputed
claim term is: “an oscillator located entirely on the
same semiconductor substrate as the central processing
unit that does not require a command input to change
the clock frequency and whose frequency is not fixed
by any external crystal.” Tech. Props. Ltd. LLC v.
Huawei Techs. Co., 849 F.3d 1349, 1360 (Fed. Cir.
2017). In doing so, the Federal Circuit noted that its
change to the prior construction “likely does not affect
the outcome in this case.” Id. The Federal Circuit’s
prediction was correct.

App.11a
The parties do not dispute that the oscillators
within the accused products operate as part of “phaselocked loop” systems (“PLLs”). The parties agree that,
in practice, these PLLs limit the frequencies at which
the oscillators at issue oscillate. See, e.g., Decl. of Dr.
Vivek Subramanian at 21, Dkt. No. 139-3; Decl. of
Dr. Vojin Oklobdzija at 9-10, Dkt. No. 142-1. The
parties also essentially agree on how PLLs work: PLLs
use a reference frequency, generally provided by an
off-chip crystal oscillator, along with a programmable
divisor to set the frequency of the on-chip system
clock. As a result, within a functioning PLL, the
frequency at which the on-chip oscillator oscillates is
a multiple of the off-chip reference frequency. See
Subramanian Decl. at 17-20; Oklobdzija Decl. at 10;
id. at 14 (“A PLL proportionally tracks the reference
frequency as closely as possible”).
TPL argues that, even within the PLL, the accused
oscillators infringe because they experience frequency
variations resulting from process, voltage, and temperature parameters for which the PLL must correct.
See TPL Opp’n Br. at 23-26, 30-31, Dkt. No. 142.
Because the oscillators are inherently responsive to
these parameters, TPL contends, the accused oscillators do not “require a command input to change the
clock frequency.” But, assuming that some small
frequency variations occur while the PLL is operating,
these minor fluctuations do not constitute the changes
in clock frequency contemplated by the Federal Circuit’s
claim construction.
The record shows that, within a PLL, the accused
oscillators operate at frequencies comparably stable
to those of crystal oscillators. See Subramanian Decl.
at 28-33; Decl. of Erik Fuehrer, Ex. 6 at 1217-26,

App.12a
1480-83, Dkt. No. 138-16; see also TPL Opp’n Br. at
24 (“At most, Defendants’ testing shows that PLLs
stabilize the output of on-chip oscillators . . . and that
those stabilized outputs are roughly similar in stability
to a frequency output by a hypothetical crystal.”).
TPL characterizes crystal oscillators as “fixed.” See
TPL Opp’n Br. at 2 (“A clock signal generated from a
crystal is a fixed-frequency signal that does not
meaningfully vary based on environmental conditions.”); Fuehrer Decl., Ex. 2 at 4, Dkt. No. 139-6,
(“Crystals are by design fixed-frequency devices whose
oscillation speed is designed to be tightly controlled and
to vary minimally due to variations in manufacturing,
operating voltage and temperature”). There is thus no
reason to consider any minor frequency variations
occurring within a locked PLL to be the changes in
clock frequency identified in the Federal Circuit’s claim
construction. See Tech. Props. Ltd., 849 F.3d at 1360.1
The record further shows that the frequency of
the on-chip oscillator within the PLL will remain
stable, in the sense discussed above, unless and until
it is changed by a command input, namely, a change
to the crystal that sets the reference frequency or to
the value of a programmable divisor within the PLL.
See Subramanian Decl. at 20; Decl. of Marzio PedraliNoy at 3-4, Dkt. No. 138-12; Decl. of Dr. Jaegon Lee
1 There is also no reason to think that the Federal Circuit intended
to refer to differences between the maximum frequency capabilities
of one processor versus another in crafting the limitation regarding
command inputs and changes in clock frequency. Therefore, to
the extent TPL contends that the practice of “binning,” in which
manufacturers sort processors based on their performance capabilities, is evidence that the accused oscillators can change
frequency as a result of fabrication process parameters, not just
command inputs, the argument is not persuasive.

App.13a
at 6, 11, Dkt. No. 138-10. TPL has provided no evidence
to the contrary, nor has it provided a definition of
“command input” that would exclude inputs of these
kinds. Cf. Oklobdzija Decl. at 12 (pointing only to the
oscillator’s “fundamental characteristics . . . determined
by physics and nature” as support for the notion that
no command input is required to change the clock
frequency).
It’s worth noting that, because PLLs inhibit
frequency changes of any significance in the absence
of a command input, PLLs prevent the oscillators in
the accused devices from acting in the advantageous
manner touted in the relevant part of the patent and
recognized by the Federal Circuit. The proposed benefit
of locating the claimed oscillator on the same substrate
as the CPU is that the clock and the CPU can “automatically vary together,” without requiring a command
input to change the clock frequency. Tech. Props.
Ltd., 849 F.3d at 1360 (citation omitted); Fuehrer Decl.,
Ex. 3 at 7, Dkt. No. 139-7 (“[T]he operational speed of
the microprocessor and ring oscillator clock are designed
to vary similarly as a function of variation in temperature, processing and other parameters affecting circuit
performance”); see also Oklobdzija Decl. at 7. The
effectively simultaneous, corresponding changes in the
frequencies of the clock and CPU allow the CPU to
run “at the maximum frequency possible, but never
too fast” given the process, voltage, and temperature
conditions affecting the CPU. ’336 Patent at 17:1-2,
Dkt. No. 139-5; see also Fuehrer Decl., Ex. 3 at 7-9.
Rather than allow the frequency of the oscillator to
vary freely with process, voltage, and temperature
parameters as in the claimed invention, the PLL controls the frequency at which its component oscillator

App.14a
oscillates so that its frequency does not track changes
in these parameters. And, as mentioned, the undisputed
evidence shows that the PLL does so very effectively,
such that any changes in frequency resulting from
operational parameters are all but imperceptible.
In its papers and through its experts, TPL makes
an alternative argument (although counsel for TPL
seemed—wisely—to disavow it at oral argument).
The argument is that what matters is not how the
accused oscillators operate within a PLL, but whether
the accused oscillators in isolation meet all the claim
limitations. See, e.g., Oklobdzija Decl. at 13 (stating
that the relevant testing to determine infringement
“would need to measure the [voltage-controlled oscillator’s] frequencies with PLL circuitry disabled so
that the VCO frequency changes in response to
temperature were not masked by PLL intervention.”).
But the accused oscillators don’t operate in isolation
in the accused devices, they operate within the tightly
controlled framework of the PLL. Given the claim
limitations at issue and the construction provided by
the Federal Circuit, TPL cannot defeat the defendants’
summary judgment motions simply by asserting that
the accused devices hypothetically could infringe if
altered. In other words, that the accused products all
situate the on-chip oscillator within a PLL matters
for purposes of determining whether those products
infringe, because the PLLs affect how the on-chip
oscillator’s frequency is determined; the PLL circuitry
is not simply an extra element added on to an infringing device. See Outside the Box Innovations, LLC v.
Travel Caddy, Inc., 695 F.3d 1285, 1305 (Fed. Cir.
2012) (per curiam) (concluding that the addition of
plywood to a fabric panel was not merely a feature

App.15a
added on to an infringing device but a “material
change” such that the accused product did not infringe
the claimed “flexible fabric . . . panel”); High Tech
Med. Instrumentation, Inc. v. New Image Indus., Inc.,
49 F.3d 1551, 1555 (Fed. Cir. 1995) (holding that a
patentee was unlikely to succeed in proving infringement where, to infringe, “[t]he original and intended
operating configuration of the device must be altered”
by loosening screws fixing the accused camera in
place); see also Accent Packaging, Inc. v. Leggett &
Platt, Inc., 707 F.3d 1318, 1327 (Fed. Cir. 2013). The
question is not whether the accused oscillators could
infringe in theory, but whether there is any dispute
about whether they do in fact.
In sum, TPL has not put forth evidence sufficient
to raise a question about whether the oscillators in
the accused products require a command input to
change the frequencies at which they oscillate. The
record shows that, unlike the free-running oscillators
described in the patent, the accused oscillators are
situated within PLLs that hold their frequencies
effectively steady until they are changed by a command
input. Because it is clear that the accused devices
require a command input to change the clock frequency,
they do not meet “each and every limitation” of the
asserted claims. Cross Med. Prod., Inc. v. Medtronic
Sofamor Danek, Inc., 424 F.3d 1293, 1310 (Fed. Cir.
2005). Summary judgment for the defendants is appropriate, and there’s no need to discuss whether the
accused oscillators are “fixed by any external crystal,”
although it seems likely that TPL would lose on that
question as well. Tech. Props. Ltd., 849 F.3d at 1360.
IT IS SO ORDERED.

App.16a
/s/ Vince Chhabria
United States District Judge
Dated: December 13, 2017

App.17a
JUDGMENT OF THE DISTRICT COURT
(DECEMBER 13, 2017)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
________________________
TECHNOLOGY PROPERTIES
LIMITED LLC, ET AL.,

Plaintiffs,
v.
HUAWEI TECHNOLOGIES CO., LTD., ET AL.,

Defendants.

________________________
Case No. 12-cv-03865-VC
________________________

TECHNOLOGY PROPERTIES
LIMITED LLC, ET AL.,

Plaintiffs,
v.
ZTE CORPORATION, ET AL.,

Defendants.

________________________
Case No. 12-cv-03876-VC
________________________

App.18a
TECHNOLOGY PROPERTIES
LIMITED LLC, ET AL.,

Plaintiffs,
v.
SAMSUNG ELECTRONICS CO., LTD., ET AL.,

Defendants.

________________________
Case No. 12-cv-03877-VC
________________________

TECHNOLOGY PROPERTIES
LIMITED LLC, ET AL.,

Plaintiffs,
v.
LG ELECTRONICS, INC., ET AL.,

Defendants.

________________________
Case No. 12-cv-03880-VC
________________________

TECHNOLOGY PROPERTIES
LIMITED LLC, ET AL.,

Plaintiffs,
v.
NINTENDO CO., LTD., ET AL.,

App.19a

Defendants.

________________________
Case No. 12-cv-03881-VC

Before: Vince CHHABRIA,
United States District Judge.
The Court, having granted the defendants’ motions
for summary judgment, now enters judgment in favor
of the defendants and against the plaintiffs in each of
the above five cases. The Clerk of Court is directed to
close these cases.
IT IS SO ORDERED.
/s/ Vince Chhabria
United States District Judge
Dated: December 13, 2017

App.20a
OPINION OF THE FEDERAL CIRCUIT
(MARCH 3, 2017)
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
________________________
TECHNOLOGY PROPERTIES LIMITED LLC,
PHOENIX DIGITAL SOLUTIONS LLC,
PATRIOT SCIENTIFIC CORPORATION,

Plaintiffs-Appellants,
v.
HUAWEI TECHNOLOGIES CO., LTD.,
FUTUREWEI TECHNOLOGIES, INC.,
HUAWEI DEVICE CO., LTD., HUAWEI DEVICE
USA INC., HUAWEI TECHNOLOGIES USA INC.,
ZTE CORPORATION, ZTE USA, INC.,
SAMSUNG ELECTRONICS CO., LTD.,
SAMSUNG ELECTRONICS AMERICA, INC.,
LG ELECTRONICS, INC., LG ELECTRONICS
U.S.A., INC., NINTENDO CO., LTD.,
NINTENDO OF AMERICA, INC.,

Defendants-Appellees.

________________________

2016-1306, 2016-1307, 2016-1309,
2016-1310, 2016-1311
Appeals from the United States District Court for the
Northern District of California in Nos. 3:12-cv-03865VC, 3:12-cv-03876-VC, 3:12-cv-03877-VC, 3:12-cv03880-VC, 3:12-cv-03881-VC, Judge Vince Chhabria

App.21a
Before: MOORE, WALLACH, and
CHEN, Circuit Judges.
MOORE, Circuit Judge.
The present appeals arise from five cases in the
Northern District of California. Technology Properties
Limited LLC, Phoenix Digital Solutions LLC, and
Patriot Scientific Corp. (collectively “Technology Properties”) asserted U.S. Patent No. 5,809,336 (the “ ’336
patent”) against Huawei Technologies Co., Ltd., Futurewei Technologies, Inc., Huawei Device Co., Ltd., Huawei
Device USA Inc., Huawei Technologies USA Inc.,
ZTE Corp., ZTE USA, Inc., Samsung Electronics Co.,
Ltd., Samsung Electronics America, Inc., LG Electronics, Inc., LG Electronics U.S.A., Inc., Nintendo Co., Ltd.,
and Nintendo of America Inc. (collectively “Appellees”)
in five separate litigations. After claim construction,
the parties stipulated to non-infringement based on
the district court’s construction of “an entire oscillator
disposed upon said integrated circuit substrate.”
Technology Properties appealed, and our court consolidated the appeals. Because the district court erred
in a portion of its construction of “entire oscillator,”
we vacate and remand.
I. Background
A.

The ’336 Patent

The ’336 patent discloses a microprocessor with
two independent clocks—a variable frequency system
clock connected to the central processing unit (“CPU”)
and a fixed-frequency clock connected to the input/
output (“I/O”) interface. ’336 patent at 3:26-35. The
variable-frequency system clock is a ring oscillator. Id.

App.22a
at 16:56-57. A ring oscillator is made by connecting an
odd number of inverters in series, then connecting
the output of the final inverter to the input of the
first, creating an inherently unstable (i.e., oscillating)
output. Id. at Fig. 18. A ring oscillator’s frequency is
considered “variable” because it fluctuates based on
external stressors such as temperature and voltage.
Id. at 16:59-67. For example, the same circuit will
oscillate at 100 MHz at room temperature but only
50 MHz at 70 degrees Celsius. Id.
The ’336 patent’s I/O clock is a quartz crystal. Id.
at 17:25-27. A crystal is a piece of material that
oscillates at a specific frequency when voltage is
applied. Unlike ring oscillators, crystals maintain a
steady frequency regardless of their environment.
For this reason, the I/O clock in the ’336 patent is
considered “fixed.” See id. at 17:33 (describing the
“fixed speed” I/O interface).
The ’336 patent teaches improving microprocessor
performance by decoupling the CPU and I/O clocks.
The variable-speed CPU clock is fabricated on the
same silicon substrate as the rest of the microprocessor,
including the CPU itself. Id. at 16:57-58. Because the
CPU and CPU clock are fabricated on the same silicon
substrate, they react similarly to external stressors.
Id. at 16:63-67. This allows the maximum processing
speed of the CPU to track the oscillating frequency of
its clock. As the patent describes it, the “CPU 70 will
always execute at the maximum frequency possible,
but never too fast.” Id. at 17:1-2. The I/O clock is
located off-chip and controls the chip’s I/O interface.
“By decoupling the variable speed of the CPU 70 from
the fixed speed of the I/O interface 432, optimum per-

App.23a
formance can be achieved by each.” Id. at 17:32-34.
The two-clock arrangement is illustrated in Figure 17:

Id. at Fig. 17.
Claim 6 of the ’336 patent is representative:
A microprocessor system comprising:
a central processing unit disposed upon an
integrated circuit substrate, said central
processing unit operating at a processing
frequency and being constructed of a first
plurality of electronic devices;
an entire oscillator disposed upon said
integrated circuit substrate and connected
to said central processing unit, said oscillator
clocking said central processing unit at a
clock rate and being constructed of a second
plurality of electronic devices, thus varying
the processing frequency of said first plurality
of electronic devices and the clock rate of
said second plurality of electronic devices in
the same way as a function of parameter vari-

App.24a
ation in one or more fabrication or operational
parameters associated with said integrated
circuit substrate, thereby enabling said
processing frequency to track said clock rate
in response to said parameter variation;
an on-chip input/output interface, connected
between said central processing unit and an
external memory bus, for facilitating exchanging coupling control signals, addresses and
data with said central processing unit; and
an external clock, independent of said oscillator, connected to said input/output interface
wherein said external clock is operative at a
frequency independent of a clock frequency
of said oscillator.
’336 patent, claim 6 (emphasis added). Claim 6 requires,
among other things, “an entire oscillator disposed
upon said integrated circuit substrate,” which refers to
the variable-frequency CPU clock. The district court
construed the term to mean “an oscillator located
entirely on the same semiconductor substrate as the
central processing unit that does not require a control signal and whose frequency is not fixed by any external crystal.” J.A. 7 (emphasis added).1 The parties
agree to the first half of the construction but dispute
the emphasized portion. J.A. 13.
Appellees contend the second half of the construction is proper because the patentee disclaimed certain
1 References to the district court’s opinion refer to the Magistrate
Judge’s Claim Construction Report and Recommendation, which
the District Judge reviewed de novo and adopted without
modification. See J.A. 5.

App.25a
claim scope during prosecution to overcome rejections based on U.S. Patent Nos. 4,503,500 (“Magar”)
and 4,670,837 (“Sheets”). Specifically, Appellees contend
the construction “whose frequency is not fixed by any
external crystal” is mandated by the patentee’s disclaiming statements relating to Magar, and the construction “that does not require a control signal” is
required by disclaiming statements relating to Sheets.
Each reference is discussed in turn below.
B.

The Magar Reference

Magar is a 1985 patent assigned to Texas Instruments that discloses a basic microprocessor. The Magar
chip contains a clock generator (CLOCK GEN) located
on the same silicon substrate as the remainder of the
processor. The inputs of CLOCK GEN are pins X1 and
X2, which are connected to a crystal or some other external generator. CLOCK GEN uses the signal from the
external crystal to generate four clocks, Q1-Q4, that
drive the chip. CLOCK GEN also regulates the chip’s
timing or synchronization with external components
with the CLKOUT pin. This is illustrated in Figure 2a:

App.26a

J.A. 2044.
During prosecution, the examiner rejected what
would become claim 6 of the ’336 patent under 35 U.S.C.
§ 103 in light of Magar. The patentee responded that
Magar did not disclose the “entire oscillator” limitation
and sought to traverse the rejection. In doing so, it
made several statements the district court found to
be disclaiming. First, the district court found that the
patentee “attempted to distinguish Magar by emphasizing that the clock disclosed in Magar was fixed by a
crystal that was external to the microprocessor, unlike
their on-chip variable speed clock.” J.A. 9 (citing the
following statement from the prosecution history).
[O]ne of ordinary skill in the art should
readily recognize that the speed of the cpu
[sic] and the clock do not vary together due
to manufacturing variation, operating voltage

App.27a
and temperature of the [integrated circuit]
in the Magar microprocessor, as taught in
the above quotation from the reference. This
is simply because the Magar microprocessor
clock is frequency controlled by a crystal
which is also external to the microprocessor.
Crystals are by design fixed-frequency devices
whose oscillation speed is designed to be
tightly controlled and to vary minimally due
to variations in manufacturing, operating
voltage and temperature. The Magar microprocessor in no way contemplates a variable
speed clock as claimed.
J.A. 2092-93. Next, the district court stated that “the
applicants also argued that the Magar clock could
not practice the claimed invention because of its
reliance on a crystal, which by its nature cannot vary
its oscillator frequency.” J.A. 9 (citing the following
statement from the prosecution history).
[C]rystal oscillators have never, to Applicant’s
knowledge, been fabricated on a single
silicon substrate with a CPU, for instance.
Even if they were, as previously mentioned,
crystals are by design fixed-frequency devices
whose oscillation frequency is designed to be
tightly controlled and to vary minimally due
to variations in manufacturing, operating
voltage and temperature. The oscillation
frequency of a crystal on the same substrate
with the microprocessor would inherently
not vary due to variations in manufacturing,
operating voltage and temperature in the
same way as the frequency capability of the

App.28a
microprocessor on the same underlying substrate, as claimed.
J.A. 2093. Third, the district court held that “[t]he
applicants also disclaimed the use of an external
crystal to cause clock signal oscillation.” J.A. 10 (citing
the following statement from the prosecution history).
Magar’s clock generator relies on an external crystal connected to terminals X1 and
X2 to oscillate, as is conventional in microprocessor designs. It is not an entire oscillator
in itself. And with the crystal, the clock rate
generated is also conventional in that it is at
a fixed, not a variable, frequency. The Magar
clock is comparable in operation to the conventional crystal clock 434 depicted in Fig.
17 of the present application for controlling
the I/O interface at a fixed rate frequency,
and not at all like the clock on which the
claims are based, as has been previously
stated.
J.A. 2101. Based on these statements, the district court
concluded that “the applicants surrendered any oscillator that like Magar’s is fixed by an off-chip crystal”
and held that the construction of “entire oscillator”
must include the limitation “whose frequency is not
fixed by any external crystal.” J.A. 7, 15.
C.

The Sheets Reference

Sheets is a patent assigned to AT&T/Bell Labs
that discloses a microprocessor with a variablefrequency clock. The Sheets CPU conserves power by
occasionally operating below its maximum frequency.
The clock’s frequency correlates to the processing

App.29a
demands faced by the CPU. When the CPU faces a
heavier processing load, its clock runs at a higher
frequency. When the CPU faces a lighter load, its
clock runs at a lower frequency.
Sheets teaches a CPU timed by a voltage-controlled
oscillator (“VCO”), which transmits the clock signal
to the CPU. The CPU constantly measures its current
processing load and computes an appropriate operating
frequency. It communicates this information to the
VCO, which throttles its frequency accordingly.
The examiner initially rejected claim 6 of the
’336 patent under § 103 in light of Sheets. Like the
Magar reference, the patentee traversed the rejection
by arguing Sheets failed to disclose an “entire
oscillator,” along the way making several statements
the district court found constituted disclaimers. First,
the district court noted that “the applicants distinguished their ‘present invention’ from microprocessors that rely on frequency control information from
an external source.” J.A. 10 (citing the following
statement from the prosecution history).
The present invention does not similarly rely
upon provision of frequency control information to an external clock, but instead contemplates providing a ring oscillator clock
and the microprocessor within the same
integrated circuit. The placement of these
elements within the same integrated circuit
obviates the need for provision of the type of
frequency control information described by
Sheets, since the microprocessor and clock
will naturally tend to vary commensurately
in speed as a function of various parameters
(e.g., temperature) affecting circuit perfor-

App.30a
mance. Sheets’ system for providing clock
control signals to an external clock is thus
seen to be unrelated to the integral microprocessor/clock system of the present invention.
J.A. 2117. Second, addressing statements made in response to a later office action, the district court found
that “the applicants went even further and disclaimed
the use of controlled inputs altogether, regardless
whether the control is on-chip or not.” J.A. 11 (citing
the following statement from the prosecution history).
Even if the Examiner is correct that the
variable clock in Sheets is in the same
integrated circuit as the microprocessor of
system 100, that still does not give [sic] the
claimed subject matter. In Sheets, a command
input is required to change the clock speed.
In the present invention, the clock speed
varies correspondingly to variations in
operating parameters of the electronic devices
of the microprocessor because both the
variable speed clock and the microprocessor
are fabricated together in the same integrated
circuit. No command input is necessary to
change the clock frequency.
J.A. 2127. Third, the district court found that “the
applicants left no doubt that, unlike ‘all cited references,’ the claimed oscillator is completely free of
inputs and extra components.” J.A. 11 (citing the
following statement from the prosecution history).
Crucial to the present invention is that since
both the oscillator or variable speed clock and
driven device are on the same substrate,

App.31a
when the fabrication and environmental
parameters vary, the oscillation or clock
frequency and the frequency capability of
the driven device will automatically vary
together. This differs from all cited references
in that the oscillator or variable speed clock
and the driven device are on the same substrate, and that the oscillator or variable
speed clock varies in frequency but does not
require manual or programmed inputs or
external or extra components to do so.
J.A. 2094. The district court found that based on
these statements, “[t]he applicants distinguished Sheets
repeatedly on the ground that Sheets requires control
signals, frequency control information or command
inputs.” J.A. 16. It then held that the construction of
“entire oscillator” must include the limitation “that does
not require a control signal.” J.A. 7.
Technology Properties appeals the district court’s
construction. We have jurisdiction pursuant to 28
U.S.C. § 1295(a)(1).
II. DISCUSSION
An applicant’s statements to the PTO characterizing its invention may give rise to prosecution disclaimer. Uship Intellectual Props., LLC v. United
States, 714 F.3d 1311, 1315 (Fed. Cir. 2013). Prosecution disclaimer can arise from both claim amendments and arguments made to the PTO. Biogen Idec,
Inc. v. GlaxoSmithKline LLC, 713 F.3d 1090, 1095
(Fed. Cir. 2013). The doctrine does not apply unless
the disclaimer is “both clear and unmistakable to one
of ordinary skill in the art.” Elbex Video, Ltd. v.
Sensormatic Elecs. Corp., 508 F.3d 1366, 1371 (Fed.

App.32a
Cir. 2007) (quotations omitted). When determining
whether disclaimer applies, we consider the statements
in the context of the entire prosecution. MIT v. Shire
Pharm., Inc., 839 F.3d 1111, 1119 (Fed. Cir. 2016). If
the challenged statements are ambiguous or amenable
to multiple reasonable interpretations, prosecution
disclaimer is not established. Id.
We review claim construction de novo except for
subsidiary fact findings, which we review for clear
error. Teva Pharm. USA, Inc. v. Sandoz, Inc., 135 S.
Ct. 831, 841-42 (2015).
A.

Disclaimer Based on Magar

Technology Properties argues the district court
erred by limiting an “entire oscillator” to one “whose
frequency is not fixed by any external crystal.” It
distinguishes Magar by arguing that Magar requires
an off-chip crystal oscillator, while claim 6 of the ’336
patent generates the CPU clock signal on-chip. It
argues Magar’s only oscillator is the off-chip crystal
that is input to CLOCK GEN, which is located on the
same silicon substrate as the CPU. It argues CLOCK
GEN itself is not an oscillator because it simply takes
the output of the off-chip crystal and modifies it to
produce four derivative signals. For these reasons, it
argues Magar is distinguishable from the claimed
invention because Magar’s clock signal is generated
off-chip, while the ’336 patent claims generate a clock
signal on-chip. It contends the district court
misinterpreted this argument in the prosecution
history. See Appellants’ Br. 34-43.
The argument Technology Properties raises on
appeal may have been sufficient to traverse the Magar
rejection and avoid a narrower construction, but this

App.33a
is not the same argument the patentee presented during
prosecution. Throughout the prosecution history, the
patentee argued Magar was distinguishable for two
specific reasons: (1) it discloses a fixed-frequency
crystal rather than a variable-frequency ring oscillator,
and (2) it requires an external (off-chip) generator.
The patentee made these distinctions in the first
paragraph of its first office action response addressing
Magar, arguing Magar was distinguishable because
“the clock disclosed in the Magar reference is in fact
driven by a fixed frequency crystal, which is external
to the Magar integrated circuit.” J.A. 2091. And the
patentee included these distinctions in its concluding
paragraph to a later office action response, summarizing
that Magar was “specifically distinguished from the
instant case in that it is both fixed-frequency (being
crystal based) and requires an external crystal or external frequency generator.” J.A. 2103 (emphasis
added). The district court’s construction properly
includes both of the patentee’s clear disclaimers.
The first aspect of the patentee’s disclaimer is that
the “entire oscillator” cannot be a fixed-frequency
crystal oscillator. The patentee argued to the examiner,
“it is clear that the element in Fig. 17 [of the ’336
patent] missing from Fig. 2a in Magar is the ring
counter variable speed clock 430.” J.A. 2092. It explained that “[t]he Magar microprocessor in no way
contemplates a variable speed clock as claimed.” J.A.
2093. It then distinguished Magar on the grounds that
its crystal clock rate “is at a fixed, not a variable, frequency.” J.A. 2101. We agree with the district court’s
conclusion that based on these statements, the “entire
oscillator” must be a variable frequency oscillator
rather than a fixed-frequency crystal. See J.A. 9-10.

App.34a
The patentee’s disclaimer may not have been necessary,
but its statements made to overcome Magar were
clear and unmistakable.
The second aspect of the patentee’s disclaimer is
that the “entire oscillator” cannot require an external
crystal or frequency generator. During prosecution,
the patentee characterized Magar as teaching a
“frequency controlled by a crystal which is also external
to the microprocessor.” J.A. 2092-93. It argued Magar
was distinguishable because “Magar’s clock generator
relies on an external crystal . . . to oscillate.” J.A.
2101. Unlike the claimed “entire oscillator,” the
patentee stated that Magar’s on-chip clock generator
in isolation “lacks the crystal or external generator”
necessary to run the on-chip clock generator. J.A.
2102. And it explained that the ’336 patent’s entire
oscillator was novel because “it oscillates without
external components (unlike the Magar reference).”
J.A. 2102. We hold that the district court’s narrowing
construction based on Magar—“whose frequency is not
fixed by any external crystal”—properly encapsulates
the patentee’s disclaiming statements.
Technology Properties presented clear and concise
arguments about the distinctions between Magar and
the ’336 patent in its briefing to our court. Had those
same arguments been made to the Patent Office, our
construction may have been different because the
patentee likely disclaimed more than was necessary
to overcome the examiner’s rejection. But the scope of
surrender is not limited to what is absolutely necessary
to avoid a prior art reference; patentees may surrender
more than necessary. See Norian Corp. v. Stryker Corp.,
432 F.3d 1356, 1361-62 (Fed. Cir. 2005); Fantasy Sports
Props., Inc. v. Sportsline.com, Inc., 287 F.3d 1108, 1114-

App.35a
15 (Fed. Cir. 2002). When this happens, we hold patentees to the actual arguments made, not the arguments
that could have been made. Norian, 432 F.3d at
1361-62. The question is what a person of ordinary
skill would understand the patentee to have disclaimed
during prosecution, not what a person of ordinary
skill would think the patentee needed to disclaim
during prosecution.
We affirm the district court’s construction that
an “entire oscillator” is one “whose frequency is not
fixed by any external crystal.”
B.

Disclaimer Based on Sheets

Technology Properties argues the district court
erred by limiting an “entire oscillator” to one “that
does not require a control signal.” We hold that the
term is properly construed as one “that does not require
a command input to change the clock frequency.”
The district court erred by holding that the
patentee disclaimed any use of a command signal by
the entire oscillator. Instead, the patentee disclaimed
a particular use of a command signal—using a command signal to change the clock frequency. The
patentee argued during prosecution that Sheets was
distinguishable from the ’336 patent claims because
Sheets requires “a command input . . . to change the
clock speed.” J.A. 2127. It described Sheets’ system
“for providing clock control signals to an external
clock” as “unrelated” to the claimed invention. J.A.
2117. Conversely, it stated that in the ’336 patent,
“[n]o command input is necessary to change the clock
frequency.” J.A. 2127. It argued its claims did not
“rely upon [the] provision of frequency control information to an external clock” taught in Sheets because

App.36a
all claimed components were located on the same
substrate. J.A. 2117. By placing all components on
the same substrate, it “obviate[d]” the need for “the
type of frequency control information described by
Sheets.” Id.
None of these statements disclaim an entire
oscillator receiving a command input for any purpose.
Every time the patentee mentioned a “control signal”
or “command input,” it did so only in the context of
using a command input to modify the frequency of
the CPU clock. This understanding is consistent
with the patentee’s characterization of the benefits of
its invention. It argued that by placing the CPU and
CPU clock on the same silicon substrate, the frequencies of both “automatically vary together.” J.A.
2094. This eliminates the need for a command input
to change clock frequency. As the patentee explained,
“the oscillator or variable speed clock varies in frequency but does not require manual or programmed
inputs or external or extra components to do so.” Id.
We hold that an “entire oscillator” is one “that
does not require a command input to change the clock
frequency.”
III. CONCLUSION
We hold that “an entire oscillator disposed upon
said integrated circuit substrate” is “an oscillator
located entirely on the same semiconductor substrate
as the central processing unit that does not require a
command input to change the clock frequency and
whose frequency is not fixed by any external crystal.”
Although this minor modification to the district court’s
construction likely does not affect the outcome in this
case, because the parties stipulated to non-infringement

App.37a
under the district court’s construction, the proper
course of action is for us to vacate and remand. We
vacate the district court’s construction and remand
for further proceedings.
VACATED AND REMANDED
COSTS
No costs on this appeal.

App.38a
FINAL JUDGMENT OF THE DISTRICT COURT
(NOVEMBER 13, 2015)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN FRANCISCO DIVISION
________________________
TECHNOLOGY PROPERTIES
LIMITED LLC, ET AL.,

Plaintiffs,
v.
HUAWEI TECHNOLOGIES CO., LTD., ET AL.,

Defendants.

________________________

Case No. 3:12-cv-03865-VC (PSG)
________________________
TECHNOLOGY PROPERTIES
LIMITED LLC, ET AL.,

Plaintiffs,
v.
ZTE CORPORATION, ET AL.,

Defendants.

________________________

Case No. 3:12-cv-03876-VC (PSG)
________________________

App.39a
TECHNOLOGY PROPERTIES
LIMITED LLC, ET AL.,

Plaintiffs,
v.
SAMSUNG ELECTRONICS CO., LTD., ET AL.,

Defendants.

________________________

Case No. 3:12-cv-03877-VC (PSG)
________________________
TECHNOLOGY PROPERTIES
LIMITED LLC, ET AL.,

Plaintiffs,
v.
LG ELECTRONICS, INC., ET AL.,

Defendants.

________________________

Case No. 3:12-cv-03880-VC (PSG)
________________________
TECHNOLOGY PROPERTIES
LIMITED LLC, ET AL.,

Plaintiffs,
v.
NINTENDO CO., LTD., ET AL.,

App.40a

Defendants.

________________________

Case No. 3:12-cv-03881-VC (PSG)
Before: Vince CHHABRIA, United States District Judge
Based upon this Court’s construction of the term
“an entire oscillator disposed upon said integrated
circuit substrate” as “an [oscillator] located entirely
on the same semiconductor substrate as the [central
processing unit] that does not require a control signal
and whose frequency is not fixed by any external
crystal” in U.S. Patent No. 5,809,336 (the “ ’336 patent”)
pursuant to the Claim Construction Report and Recommendation, dated September 22, 2015, and this
Court’s Order Adopting Magistrate Judge’s Report and
Recommendation, dated November 9, 2015, Plaintiffs
Technology Properties Limited LLC, Phoenix Digital
Solutions LLC, and Patriot Scientific Corporation
(collectively, “Plaintiffs”) and Defendants Huawei Technologies Co., Ltd., Huawei Device Co., Ltd., Huawei
Device USA, Inc., Futurewei Technologies, Inc., Huawei
Technologies USA, Inc., ZTE Corporation, ZTE (USA)
Inc., Samsung Electronics Co., Ltd., Samsung Electronics America, Inc., LG Electronics, Inc., LG Electronics U.S.A., Inc., Nintendo Co., Ltd., and Nintendo
of America, Inc. (collectively, “Defendants”) (together,
the “Parties”) have stipulated that all Defendants are
entitled to a judgment of non-infringement as a
matter of law as to all of Plaintiffs’ asserted claims of
the ’336 patent in the above-titled and numbered
civil cases (collectively, “this Action”).
Accordingly, the Court enters Judgment as follows:

App.41a
Judgment is entered against Plaintiffs and for
Defendants as to Plaintiffs’ claims for patent infringement with respect to the ’336 patent, subject to the
parties’ right to appeal.
Subject to the parties’ right to appeal, the Court
further enters judgment for Defendants and against
Plaintiffs on Defendants’ respective counterclaims
seeking declaratory judgment of non-infringement
and Defendants’ respective affirmative defenses of
non-infringement, and declares the ’336 patent not
infringed by Defendants. Plaintiffs shall take nothing
from Defendants with respect to the asserted claims
of the ’336 patent.
All other claims, counterclaims, defenses, or other
matters which have been asserted, including Defendants’ counterclaims of patent invalidity, are dismissed
without prejudice.
Each party shall bear its own costs and attorneys’ fees.
IT IS SO ORDERED.
/s/ Vince Chhabria
United States District Judge
Dated: November 13, 2015

App.42a
ORDER ADOPTING MAGISTRATE JUDGE’S
REPORT AND RECOMMENDATION
(NOVEMBER 9, 2015)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
________________________
TECHNOLOGY PROPERTIES
LIMITED LLC, ET AL.,

Plaintiffs,
v.
HUAWEI TECHNOLOGIES CO., LTD., ET AL.,

Defendants.

________________________
Case No. 12-cv-03865-VC
Re: Dkt. Nos. 98, 105
________________________

TECHNOLOGY PROPERTIES
LIMITED LLC, ET AL.,

Plaintiffs,
v.
ZTE CORPORATION, ET AL.,

Defendants.

________________________

App.43a
Case No. 12-cv-03876-VC
Re: Dkt. Nos. 109, 112
________________________
TECHNOLOGY PROPERTIES
LIMITED LLC, ET AL.,

Plaintiffs,
v.
SAMSUNG ELECTRONICS CO., LTD., ET AL.,

Defendants.

________________________
Case No. 12-cv-03877-VC
Re: Dkt. Nos. 104, 107
________________________

TECHNOLOGY PROPERTIES
LIMITED LLC, ET AL.,

Plaintiffs,
v.
LG ELECTRONICS, INC., ET AL.,

Defendants.

________________________
Case No. 12-cv-03880-VC
Re: Dkt. Nos. 117, 120
________________________

App.44a
TECHNOLOGY PROPERTIES
LIMITED LLC, ET AL.,

Plaintiffs,
v.
NINTENDO CO., LTD., ET AL.,

Defendants.

________________________
Case No. 12-cv-03881-VC
Re: Dkt. Nos. 106, 109

Before: Vince CHHABRIA, United States District Judge
The Court agrees with the plaintiffs that de novo
review of the Magistrate Judge’s Report and Recommendation is warranted. Having reviewed the Report
and Recommendation de novo, the Court adopts it
without modification.
IT IS SO ORDERED.
/s/ Vince Chhabria
United States District Judge
Dated: November 9, 2015

App.45a
MAGISTRATE REPORT
AND RECOMMENDATION ON CLAIM
CONSTRUCTION
(SEPTEMBER 22, 2015)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
________________________
TECHNOLOGY PROPERTIES
LIMITED LLC, ET AL.,

Plaintiffs,
v.
HUAWEI TECHNOLOGIES CO., LTD., ET AL.,

Defendants.

________________________

Case No. 3:12-cv-03865-VC
________________________
TECHNOLOGY PROPERTIES
LIMITED LLC, ET AL.,

Plaintiffs,
v.
ZTE CORPORATION, ET AL.,

Defendants.

________________________

App.46a
Case No. 3:12-cv-03876-VC
________________________
TECHNOLOGY PROPERTIES
LIMITED LLC, ET AL.,

Plaintiffs,
v.
SAMSUNG ELECTRONICS CO., LTD., ET AL.,

Defendants.

________________________

Case No. 3:12-cv-03877-VC
________________________
TECHNOLOGY PROPERTIES
LIMITED LLC, ET AL.,

Plaintiffs,
v.
LG ELECTRONICS, INC., ET AL.,

Defendants.

________________________

Case No. 3:12-cv-03880-VC
________________________
TECHNOLOGY PROPERTIES
LIMITED LLC, ET AL.,

Plaintiffs,

App.47a
v.
NINTENDO CO., LTD., ET AL.,

Defendants.

________________________

Case No. 3:12-cv-03881-VC
Before: Paul S. GREWAL,
United States Magistrate Judge
The parties to this patent infringement suit dispute the construction of just one claim term in U.S.
Patent No. 5,809,336: “an entire oscillator disposed
upon said integrated circuit substrate.”1 At issue is
the impact of various statements made by the patent
applicant to the examiner during the patent’s prosecution. Because these statements would be understood by one of ordinary skill in the art as disclaiming
certain scope of the disputed “entire oscillator” term,
the court RECOMMENDS construction of the term to
reflect this disclaimer, as follows: “an [oscillator]
located entirely on the same semiconductor substrate
as the [central processing unit] that does not require
a control signal and whose frequency is not fixed by
any external crystal.”
I.
Consistent with the Supreme Court’s admonition
in 1886 that a patent claim not be “a nose of wax,
which may be turned and twisted in any direction,”2
1 See Docket No. 89 at 6-7.
2 White v. Dunbar, 119 U.S. 47, 51 (1886).

App.48a
the Federal Circuit has long held that a claim term
must be understood as limited if the applicant argued
as much during prosecution in order to overcome
prior art.3 “‘[T]he prosecution history can often
inform the meaning of the claim language by demonstrating . . . whether the inventor limited the
invention in the course of prosecution, making the
claim scope narrower than it would otherwise be.’”4
Plaintiff Technology Property Limited and Patriot
Scientific brought these patent infringement suits for
infringement of three patents: U.S. Patent Nos.
5,440,749, 5,530,890 and 5,809,336. Only the ’336
patents remains at issue; the others were dismissed
by stipulation.5 The ’336 patent, titled “High Performance Microprocessor Having Variable Speed
System Clock,” was derived along with the others from
a single patent application that was subject to
nothing less than a ten-way restriction requirement.
The result is that the ’336 specification includes

3 See, e.g., Southwall Techs., Inc. v. Cardinal IG Co., 54 F.3d
1570, 1576 (Fed. Cir. 1995); see also Rheox, Inc. v. Entact, Inc.,
276 F.3d 1319, 1325 (Fed. Cir. 2002) (“Explicit arguments made
during prosecution to overcome prior art can lead to a narrow
claim interpretation because ‘[t]he public has a right to rely on
such definitive statements made during prosecution.’”) (quoting
Digital Biometrics, Inc. v. Identix, Inc., 149 F.3d 1335, 1347 (Fed.
Cir. 1998)).
4 Abbott Labs. v. Sandoz, Inc., 566 F.3d 1282, 1289 (Fed. Cir. 2009)
(quoting Phillips v. AWH Corp., 415 F.3d 1303, 1317 (Fed. Cir.
2005) (en banc)).
5 See Docket No. 86; all docket references are to Case No. 3:12-cv03865-VC.

App.49a
much discussion that is irrelevant to that which the
’336 patent specifically claims.6
The ’336 patent claims an invention that allows
the frequency of a central processing unit, the brains
of any computing device, to fluctuate based on local
conditions. Traditional microprocessors use off-chip,
fixed frequency clocks to regulate the CPU’s frequency.7
One result is that the clock needs to be set lower than
the CPU’s maximum possible frequency to ensure
proper operation under worst-case conditions. The
’336 patent solves this problem by placing a ring
oscillator on the same silicon substrate as the CPU to
act as the CPU’s clock. Because the ring oscillator is
on the same silicon substrate and is made of the same
components as the CPU, it is subject to the same environmental conditions and thus will allow the CPU
to operate at higher rates during good conditions and
lower rates during bad. As the specification explains,
the microprocessor may “operate over wide temperature ranges, wide voltage swings, and wide variations
in semiconductor processing” that “all affect transistor
gate propagation delays.”8 Because other devices with
which the microprocessor communicates, both on-chip
and off-chip, cannot tolerate a variable speed clock, a
second, conventional “crystal clock” is separately
connected to the input/output interface.9
During the ’336 patent’s prosecution, the applicants made a variety of arguments to the examiner
6 See, e.g., Docket No. 28-3, Ex. C at 3:27-35, 16:43-17:37.
7 See Docket No. 28-3, Ex. C at 16:48-50, 17:12-13.
8 Docket No. 28-3, Ex. C at 16:44-48.
9 See Docket No. 28-3, Ex. C at 17:14-34, Fig. 17.

App.50a
to overcome two key prior art references: U.S. Patent
No. 4,503,500 (“Magar”) and U.S. Patent No. 4,670,837
(“Sheets”). With respect to Magar, the examiner initially
rejected the claims after noting that certain circuitry
in Magar was fabricated on the same microprocessor
substrate as the CPU, as required by the claims. The
applicants then attempted to distinguish Magar by
emphasizing that the clock disclosed in Magar was
fixed by a crystal that was external to the microprocessor, unlike their on-chip variable speed clock:
[O]ne of ordinary skill in the art should
readily recognize that the speed of the CPU
and clock do not vary together due to manufacturing variation, operating voltage, and
temperature of the IC in the Magar processor . . . This is simply because the Magar
microprocessor clock is frequency controlled
by a crystal which is also external to the
microprocessor. Crystals are by design fixed
frequency devices whose oscillation speed is
designed to be tightly controlled and to vary
minimally due to variations in manufacturing, operating voltage and temperature.
The Magar microprocessor in no way contemplates a variable speed clock as claimed.10
In the same amendment, the applicants also argued
that the Magar clock could not practice the claimed
invention because of its reliance on a crystal, which
by its nature cannot vary its oscillation frequency:
[C]rystal oscillators have never, to Applicants’
knowledge, been fabricated on a single silicon
10 Docket No. 90-7, Ex. D at 3-4.

App.51a
substrate with a CPU, for instance. Even if
they were, as previously mentioned, crystals
are by design fixed-frequency devices whose
oscillation frequency is designed to be tightly
controlled and to vary minimally due to variations in manufacturing, operating voltage
and temperature. The oscillation frequency
of a crystal on the same substrate with the
microprocessor would inherently not vary
due to variations in manufacturing, operating
voltage and temperature in the same way as
the frequency capability of the microprocessor
on the same underlying substrate, as
claimed.11
The PTO nonetheless issued a second rejection
based on Magar, and the applicants responded by
emphasizing again that the claimed invention did not
rely on an external crystal’s fixed frequency to set the
clock’s frequency rate:
The essential difference is that the frequency
or rate of the . . . signals is determined by
the processing and/or operating parameters
of the integrated circuit containing the . . .
circuit, while the frequency or rate of the . . .
signals depicted in Magar . . . are determined by the fixed frequency of the external
crystal.12
The applicants also disclaimed the use of an
external crystal to cause clock signal oscillation:
Magar’s clock generator relies on an exter11 Id. at 4.
12 Id. at 4.

App.52a
nal crystal connected to terminals X1 and
X2 to oscillate. . . . It is not an entire oscillator
in itself. And with the crystal, the clock rate
generated is also conventional in that it is a
fixed, not a variable, frequency. The Magar
clock is comparable in operation to the
conventional crystal clock 434 depicted in
Fig. 17 of the present application for controlling the I/O interface at a fixed rate frequency, and not at all like the clock on
which the claims are based.13
The examiner similarly issued an initial rejection
in view of Sheets. In response, the applicants distinguished their “present invention” from microprocessors that rely on frequency control information
from an external source:
The present invention does not similarly rely
upon provision of frequency control information to an external clock, but instead
contemplates providing a ring oscillator clock
and the microprocessor within the same
integrated circuit. The placement of these
elements within the same integrated circuit
obviates the need for provision of the type of
frequency control information described by
Sheets, since the microprocessor and clock
will naturally tend to vary commensurately
in speed as a function of various parameters
(e.g., temperature) affecting circuit performance. Sheets’ system for providing clock
control signals to an external clock is thus
seen to be unrelated to the integral micro13 Id. at 3.

App.53a
processor/clock system of the present invention.14
Because the applicants referred to the “present invention” in this statement, their disclaimer applies to all
claims.15
But that disclaimer, like the prior disclaimers,
could not secure allowance. In response to a subsequent
rejection, the applicants went even further and
disclaimed the use of controlled inputs altogether,
regardless whether the control is on-chip or not:
Even if the examiner is correct that the
variable clock in Sheets is in the same
circuit as the microprocessor of system 100,
that still does not give the claimed subject
matter. In Sheets, a command input is required to change the clock speed. In the
present invention, the clock speed varies
correspondingly to variations in operating
parameters. . . . No command input is necessary to change the clock frequency.16
Thus, according to applicants, controlling the on-chip
oscillator’s speed using a command signal “does not
give the claimed subject matter.”17 Indeed, in a later
amendment, the applicants left no doubt that, unlike
“all cited references,” the claimed oscillator is completely free of inputs and extra components:
14 Docket No. 90-9, Ex. F at 8.
15 See, e.g., Ballard Med. Prods. v. Allegiance Healthcare Corp.,
268 F.3d 1352, 1360-62 (Fed. Cir. 2001).
16 Docket No. 90-10, Ex. G at 4.
17 Id.

App.54a
Crucial to the present invention is that . . .
when fabrication and environmental parameters vary, the oscillation or clock frequency
and the frequency capability of the driven
device will automatically vary together. This
differs from all cited references in that . . .
the oscillator or variable speed clock varies
in frequency but does not require manual or
programmed inputs or external or extra
components to do so.18
After overcoming these and other objections by
the examiner, the ’336 patent issued on September
15, 1998. The patent has been construed in three previous litigations, including one before the undersigned that resulted in a nine-day trial. In the Eastern
District of Texas, Judge Ward construed the “entire
ring oscillator” claim term in claim 1 to preclude
reliance on either a control signal or an external
crystal/clock generator to generate a clock signal.19
In reaching this conclusion, Judge Ward explained:
“The Court agrees with the defendants that the applicant disclaimed the use of an input control signal and
an external crystal/clock generator to generate a
clock signal.”20
Similarly, in a United States International Trade
Commission investigation, Judge Gildea construed
“entire oscillator” as precluding reliance on either a
control signal or an external crystal/clock generator

18 Docket No. 90-7, Ex. D at 5.
19 See Docket No. 90-15, Ex. L at 12.
20 Id.

App.55a
to generate a clock signal.21 Judge Gildea found that
Plaintiffs clearly and unambiguously disclaimed any
oscillator that relies on a control signal or an external crystal or frequency generator.22 The Commission affirmed Judge Gildea’s construction.23
Likewise, this court construed “ring oscillator”
as “an oscillator having a multiple, odd number of
inversions arranged in a loop, wherein the oscillator
is variable based on the temperature, voltage and
process parameters in the environment,”24 and
instructed the jury that the term “entire oscillator”
excludes any external clock used to generate the CPU
clock signal.25
The parties to this litigation agree that the
disputed term must be limited as “an [oscillator] that
is located entirely on the same semiconductor substrate
as the [central processing unit].”26 Where they disagree
is whether the term should further be limited to read
as “an [oscillator] that is located entirely on the same
21 See Docket No. 90-16, Ex. M at 40-41; Docket No. 90-17, Ex.
N at 16-25.
22 See Docket No. 90-20, Ex. Q at 39-40 (finding that “the
essential point made by the applicants in seeking to gain
acceptance” of their claims, and their “unqualified statements
in distinguishing” the prior art, constituted a “clear disavowal”
of claim scope).
23 See Docket No. 90-17, Ex. N at 16-25.
24 See Acer, Inc. v. Tech. Properties Ltd., No. 5:08-CV-00877
PSG, 2013 WL 4515545, at *5 (N.D. Cal. Aug. 21, 2013).
25 See Docket No. 90-13, Ex. J at 26; Docket No. 90-14, Ex. K at
2; see also Docket No. 90-18, Ex. O at 11, and n.24.
26 Docket No. 89 at 7.

App.56a
semiconductor substrate as the [central processing
unit] and does not rely on a control signal or an
external crystal/clock generator to cause clock signal
oscillation or control clock signal frequency.”27
II.
This court has jurisdiction under 28 U.S.C.
§§ 1331 and 1338. The presiding judge referred all
pretrial matters to the undersigned pursuant to Fed.
R. Civ. P. 72(a).28
“To construe a claim term, the trial court must
determine the meaning of any disputed words from
the perspective of one of ordinary skill in the pertinent
art at the time of filing.”29 This requires a careful
review of the intrinsic record comprised of the claim
terms, written description and prosecution history of
the patent.30
While claim terms “are generally given their
ordinary and customary meaning,”31 the claims them27 Id.
28 See Docket No. 17.
29 Chamberlain Group, Inc. v. Lear Corp., 516 F.3d 1331, 1335
(Fed. Cir. 2008).
30 See id. (“To construe a claim term, the trial court must determine the meaning of any disputed words from the perspective of
one of ordinary skill in the pertinent art at the time of filing.
Intrinsic evidence, that is the claims, written description, and
the prosecution history of the patent, is a more reliable guide to
the meaning of a claim term than are extrinsic sources like
technical dictionaries, treatises, and expert testimony.”) (citing
Phillips, 415 F.3d at 1312).
31 Phillips, 415 F.3d at 1312 (quoting Vitronics Corp. v.
Conceptronic, Inc., 90 F.3d 1576, 1582 (Fed. Cir. 1996)).

App.57a
selves and the context in which the terms appear “provide substantial guidance as to the meaning of particular claim terms.”32 Indeed, a patent’s specification “is always highly relevant to the claim construction analysis.”33 Claims “must be read in view of the
specification, of which they are part.”34
Although the patent’s prosecution history “lacks
the clarity of the specification and thus is less useful
for claim construction purposes,” it “can often inform
the meaning of the claim language by demonstrating
how the inventor understood the invention and whether
the inventor limited the invention in the course of
prosecution, making the claim scope narrower than it
would otherwise be.”35 The court also has the discretion to consider extrinsic evidence, including dictionaries, learned treatises and testimony from experts
and inventors.36 Such evidence, however, is “less
significant than the intrinsic record in determining the
legally operative meaning of claim language.”37 No
32 Phillips, 415 F.3d at 1314
33 Phillips, 415 F.3d at 1312-15.
34 Markman v. Westview Instruments, Inc., 52 F.3d 967, 979
(Fed. Cir. 1995); see also Ultimax Cement Mfg. Corp v. CTS
Cement Mfg. Corp., 587 F. 3d 1339, 1347 (Fed. Cir. 2009).
35 Phillips, 415 F.3d at 1317 (internal quotations omitted).
36 See id. (“Although we have emphasized the importance of
intrinsic evidence in claim construction, we have also authorized district courts to rely on extrinsic evidence, which ‘consists
of all evidence external to the patent and prosecution history,
including expert and inventor testimony, dictionaries, and
learned treatises.’”) (quoting Markman, 52 F.3d at 980).
37 Phillips, 415 F.3d at 1317 (citing C.R. Bard, Inc. v. U.S. Surgical
Corp., 388 F.3d 858, 862 (Fed. Cir. 2004)) (internal quotations

App.58a
extrinsic evidence is necessary to resolve the dispute
here, however, because the intrinsic record is dispositive that the applicant disclaimed certain claim scope
to convince the examiner to issue the patent.
III.
“[T]here is no principle of patent law that the
scope of surrender of subject matter made during
prosecution is limited to what is absolutely necessary
to avoid a prior art reference that was the basis for
an examiner’s rejection.”38 Whether necessary or not
to get the examiner to avoid Magar and Sheets, the
applicant here surrendered subject matter that the
definition of the “entire oscillator” term must account,
albeit in language different than that proposed by
either side.
To avoid Magar, the applicants surrendered any
oscillator that like Magar’s is fixed by an off-chip
crystal. Over and over again, the applicants insisted
that its claims did not read on Magar because of this
distinction. Whether styled by the applicants as an
“essential difference” or “not at all like the clock on
which the claims are based,”39 Magar is distinct from
the invention because it fixes the frequency of the
CPU with a crystal oscillator that is not on the same
silicon substrate. Having sold the Patent Office on
this distinction, and told the world the same in the
prosecution history, the applicants understood that
and additional citations omitted).
38 Norian Corp. v. Stryker Corp., 432 F.3d 1356, 1361 (Fed. Cir.
2005).
39 Docket No. 90-8, Ex. E at 3, 4.

App.59a
they could not later claim anything else. The Federal
Circuit has taught this lesson over and over again.40
40 See, e.g., Southwall, 54 F.3d at 1576 (“Claims may not be
construed one way in order to obtain their allowance and in a
different way against accused infringers.”); Rheox, 276 F.3d at
1325 (“Explicit arguments made during prosecution to overcome
prior art can lead to a narrow claim interpretation because
‘[t]he public has a right to rely on such definitive statements
made during prosecution.’”); Gillespie v. Dywidag Sys. Int’l,
USA, 501 F.3d 1285, 1291 (Fed. Cir. 2007) (“The patentee is
held to what he declares during the prosecution of his patent.”);
Computer Docking Station Corp. v. Dell, Inc., 519 F.3d 1366,
1379 (Fed. Cir. 2008) (holding that “the sum of the patentees’
statements during prosecution would lead a competitor to
believe that the patentee had disavowed coverage of laptops”
and, thus, affirming. the trial court’s construction of the portable
computer limitation); Seachange Int’l, Inc. v. C-COR, Inc., 413
F.3d 1361, 1372-75 (Fed. Cir. 2005) (“Where an applicant argues
that a claim possesses a feature that the prior art does not
possess in order to overcome a prior art rejection, the argument
may serve to narrow the scope of otherwise broad claim language.”); see also Am. Piledriving Equip. v. Geoquip, Inc., 637 F.
3d 1324, 1336 (Fed. Cir. 2011) (“[A]n applicant’s argument that
a prior art reference is distinguishable on a particular ground
can serve as a disclaimer of claim scope even if the applicant
distinguishes the reference on other grounds as well.”); Chimie
v. PPG Indus., Inc., 402 F.3d 1371, 1384 (Fed. Cir. 2005) (“The
purpose of consulting the prosecution history in construing a
claim is to ‘exclude any interpretation that was disclaimed during
prosecution.’”; “Accordingly, ‘where the patentee has unequivocally disavowed a certain meaning to obtain his patent, the
doctrine of prosecution disclaimer attaches and narrows the
ordinary meaning of the claim congruent with the scope of the
surrender.’”) (citations omitted); Microsoft Corp. v. Multi-Tech.
Sys., Inc., 357 F.3d 1340, 1349 (Fed. Cir. 2004) (a court “cannot
construe the claims to cover subject matter broader than that
which the patentee itself regarded as comprising its invention
and represented to the PTO”); Springs Window Fashions LP v.
Novo Indus., L.P., 323 F.3d 989, 993-96 (Fed. Cir. 2003)
(rejecting patentee’s attempt to narrow the scope of disclaimer,

App.60a
The song remains much the same regarding
Sheets. The applicants distinguished Sheets repeatedly
on the ground that Sheets requires control signals,
frequency control information or command inputs. In
contrast, they characterize the invention upon relying
upon or requiring any such signals, information or
inputs.41 Because applicants described this distinction
as no less than “crucial,” and applicable to the “present
invention,” their disclaimer applies to all claims.42
Plaintiffs principally argue that the distinctions
drawn from Magar and Sheets are already expressly
included in the patent claims themselves. It is true
that the “on-chip/off-chip” distinction and the invention’s variability depending on PVT are reflected in
other limitations. But those other limitations do not
get at the full range of distinctions drawn, especially
the claimed invention’s oscillator frequency not being
fixed by any crystal off-chip and the oscillator not
needing any control inputs. The Federal Circuit has
been clear that claim construction must reflect all
disclaimers, not merely a subset.43
even though the examiner did not rely on the disclaimer to
issue the claims); N. Am. Container Inc. v. Plastipak Packaging
Inc., 415 F.3d 1335, 1345-46 (Fed. Cir. 2005) (holding that “the
applicant, through argument [that the prior-art inner walls are
‘slightly concave’] during the prosecution, disclaimed inner
walls of the base portion having any concavity. . . . [a]lthough
the inner walls disclosed in the [prior art] may be viewed as
entirely concave”).
41 See Docket No. 90-9, Ex. F at 8; see also Docket No. 90-10,
Ex. G at 4.
42 See, e.g., Ballard Med. Prods. v. Allegiance Healthcare Corp.,
268 F.3d 1352, 1360-62 (Fed. Cir. 2001).
43 See Krippelz v. Ford Motor Co., 667 F.3d 1261, 1267 (Fed. Cir.

App.61a
The undersigned appreciates that the construction
recommended differs from the constructions adopted
in the Eastern District of Texas, the International
Trade Commission and by the undersigned as presiding
judge in HTC. It also must be noted that neither party
urged this particular language. But putting aside
any notion that this court is bound in this case by
any prior construction, the recommended construction
is consistent with the fundamental meaning of those
earlier constructions. After multiple rounds of briefing
by the parties and a lengthy hearing, the undersigned is convinced that the particular language
urged recommended here best captures what actually
happened at the patent office. In the universe of claim
construction, that directive is ultimate prime.
SO ORDERED.
/s/ Paul S. Grewal
United States Magistrate Judge
Dated: September 22, 2015

2012); Am. Piledriving Equip. v. Geoquip, Inc., 637 F.3d 1324,
1336 (Fed. Cir. 2011); Elkay v. Mgf. Co. v. Ebco Mfg. Co., 192 F.3d
973, 979 (Fed. Cir. 1999).

App.62a
ORDER OF THE FEDERAL CIRCUIT DENYING
PETITION FOR REHEARING EN BANC
(APRIL 10, 2019)
UNITED STATED COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
________________________
TECHNOLOGY PROPERTIES LIMITED LLC,
PHOENIX DIGITAL SOLUTIONS LLC,
PATRIOT SCIENTIFIC CORPORATION,

Plaintiffs-Appellants,
v.
HUAWEI TECHNOLOGIES CO., LTD.,
FUTUREWEI TECHNOLOGIES, INC.,
HUAWEI DEVICE CO., LTD., HUAWEI DEVICE
USA INC., HUAWEI TECHNOLOGIES USA INC.,
ZTE CORPORATION, ZTE USA, INC.,
SAMSUNG ELECTRONICS CO., LTD.,
SAMSUNG ELECTRONICS AMERICA, INC.,
LG ELECTRONICS, INC., LG ELECTRONICS
U.S.A., INC., NINTENDO CO., LTD.,
NINTENDO OF AMERICA, INC.,

Defendants-Appellees.

________________________

2018-1439, 2018-1440, 2018-1441,
2018-1444, 2018-1445
Appeals from the United States District Court
for the Northern District of California in
Nos. 3:12-cv-03865-VC, 3:12-cv-03876-VC,

App.63a
3:12-cv-03877-VC, 3:12-cv-03880-VC,
3:12-cv-03881-VC, Judge Vince Chhabria.
Before: PROST, Chief Judge., NEWMAN,
LOURIE, DYK, MOORE, O’MALLEY,
REYNA, WALLACH, TARANTO, CHEN,
HUGHES, and STOLL, Circuit Judges.
PER CURIAM
Appellants Patriot Scientific Corporation, Phoenix
Digital Solution LLC and Technology Properties
Limited LLC filed a petition for rehearing en banc.
The petition was first referred as a petition for rehearing to the panel that heard the appeal, and thereafter
the petition for rehearing en banc was referred to the
circuit judges who are in regular active service.
Upon consideration thereof
It Is Ordered That:
The Petition for panel rehearing is denied.
The Petition for rehearing en banc is denied.
The mandate of the court will issue on April 17,
2019.
For the Court
/s/ Peter R. Marksteiner
Clerk of Court
Date: April 10, 2019

App.64a
CONSTITUTIONAL AND
STATUTORY PROVISIONS
28 U.S.C. § 1331.—Federal Question
The district courts shall have original jurisdiction
of all civil actions arising under the Constitution,
laws, or treaties of the United States.
28 U.S.C. § 1338.—Patents, plant variety protection,
copyrights, mask works, designs, trademarks, and
unfair competition
(a) The district courts shall have original jurisdiction of any civil action arising under any
Act of Congress relating to patents, plant
variety protection, copyrights and trademarks. No State court shall have jurisdiction over any claim for relief arising under
any Act of Congress relating to patents,
plant variety protection, or copyrights. For
purposes of this subsection, the term “State”
includes any State of the United States, the
District of Columbia, the Commonwealth of
Puerto Rico, the United States Virgin
Islands, American Samoa, Guam, and the
Northern Mariana Islands.
[* * * ]
35 U.S.C. § 101.—Inventions Patentable
Whoever invents or discovers any new and useful
process, machine, manufacture, or composition of
matter, or any new and useful improvement
thereof, may obtain a patent therefor, subject to
the conditions and requirements of this title.

App.65a
35 U.S.C. § 112.—Specification
(a) In General.—The specification shall contain
a written description of the invention, and of the
manner and process of making and using it, in
such full, clear, concise, and exact terms as to
enable any person skilled in the art to which it
pertains, or with which it is most nearly connected, to make and use the same, and shall set
forth the best mode contemplated by the inventor or joint inventor of carrying out the invention.
(b) Conclusion.—The specification shall conclude
with one or more claims particularly pointing out
and distinctly claiming the subject matter which
the inventor or a joint inventor regards as the
invention.
[***]
35 U.S.C. § 131.—Examination of Application
The Director shall cause an examination to be
made of the application and the alleged new
invention; and if on such examination it appears
that the applicant is entitled to a patent under the
law, the Director shall issue a patent therefor.
[***]
35 U.S.C. § 132.—Notice of Rejection; Reexamination
(a) Whenever, on examination, any claim for a
patent is rejected, or any objection or requirement
made, the Director shall notify the applicant
thereof, stating the reasons for such rejection, or
objection or requirement, together with such
information and references as may be useful in

App.66a
judging of the propriety of continuing the prosecution of his application; and if after receiving such
notice, the applicant persists in his claim for a
patent, with or without amendment, the application shall be reexamined. No amendment shall
introduce new matter into the disclosure of the
invention.
35 U.S.C. § 131.—Examination of Application
The Director shall cause an examination to be
made of the application and the alleged new
invention; and if on such examination it appears
that the applicant is entitled to a patent under the
law, the Director shall issue a patent therefor.
35 U.S.C. § 132.—Notice of rejection; Reexamination
(a) Whenever, on examination, any claim for a
patent is rejected, or any objection or requirement
made, the Director shall notify the applicant
thereof, stating the reasons for such rejection, or
objection or requirement, together with such
information and references as may be useful in
judging of the propriety of continuing the prosecution of his application; and if after receiving such
notice, the applicant persists in his claim for a
patent, with or without amendment, the application shall be re-examined. No amendment shall
introduce new matter into the disclosure of the
invention.
(b) The Director shall prescribe regulations to
provide for the continued examination of applications for patent at the request of the applicant.
The Director may establish appropriate fees for
such continued examination and shall provide a

App.67a
50 percent reduction in such fees for small
entities that qualify for reduced fees under
section 41(h)(1).
35 U.S.C. § 134.—
Appeal to the Patent Trial and Appeal Board
(a) Patent Applicant.—An applicant for a patent,
any of whose claims has been twice rejected, may
appeal from the decision of the primary examiner to the Patent Trial and Appeal Board, having
once paid the fee for such appeal.
(b) Patent Owner.—A patent owner in a reexamination may appeal from the final rejection of any
claim by the primary examiner to the Patent Trial
and Appeal Board, having once paid the fee for
such appeal.
35 U.S.C. § 141.—
Appeal to Court of Appeals for the Federal Circuit
(a) Examinations.—An applicant who is dissatisfied with the final decision in an appeal to the
Patent Trial and Appeal Board under section
134(a) may appeal the Board’s decision to the
United States Court of Appeals for the Federal
Circuit. By filing such an appeal, the applicant
waives his or her right to proceed under section
145.
(b) Reexaminations.—A patent owner who is
dissatisfied with the final decision in an appeal
of a reexamination to the Patent Trial and Appeal
Board under section 134(b) may appeal the Board’s
decision only to the United States Court of Appeals
for the Federal Circuit.

App.68a
(c) Post-Grant and Inter Partes Reviews.—A party
to an inter partes review or a post-grant review
who is dissatisfied with the final written decision
of the Patent Trial and Appeal Board under section
318(a) or 328(a) (as the case may be) may appeal
the Board’s decision only to the United States
Court of Appeals for the Federal Circuit.
[***]
35 U.S.C. § 145.—Civil Action to Obtain Patent
An applicant dissatisfied with the decision of the
Patent Trial and Appeal Board in an appeal under
section 134(a) may, unless appeal has been taken
to the United States Court of Appeals for the
Federal Circuit, have remedy by civil action against
the Director in the United States District Court for
the Eastern District of Virginia if commenced
within such time after such decision, not less than
sixty days, as the Director appoints. The court may
adjudge that such applicant is entitled to receive
a patent for his invention, as specified in any of
his claims involved in the decision of the Patent
Trial and Appeal Board, as the facts in the case
may appear and such adjudication shall authorize
the Director to issue such patent on compliance
with the requirements of law. All the expenses of
the proceedings shall be paid by the applicant.
35 U.S.C. § 153.—How Issued
Patents shall be issued in the name of the United
States of America, under the seal of the Patent and
Trademark Office, and shall be signed by the
Director or have his signature placed thereon and

App.69a
shall be recorded in the Patent and Trademark
Office.
35 U.S.C. § 282.—Presumption of Validity; Defenses
(a) In General.—A patent shall be presumed
valid. Each claim of a patent (whether in
independent, dependent, or multiple dependent
form) shall be presumed valid independently of
the validity of other claims; dependent or multiple dependent claims shall be presumed valid
even though dependent upon an invalid claim.
The burden of establishing invalidity of a patent
or any claim thereof shall rest on the party
asserting such invalidity.
(b) Defenses.—The following shall be defenses
in any action involving the validity or infringement of a patent and shall be pleaded:
(1) Non-infringement, absence of liability for
infringement or unenforceability.
(2) Invalidity of the patent or any claim in suit
on any ground specified in part II as a
condition for patentability.
(3) Invalidity of the patent or any claim in suit
for failure to comply with—
(A) any requirement of section 112, except
that the failure to disclose the best
mode shall not be a basis on which any
claim of a patent may be canceled or
held invalid or otherwise unenforceable;
or
(B) any requirement of section 251.

App.70a
(4) Any other fact or act made a defense by this
title.
(c) Notice of Actions; Actions During Extension
of Patent Term.—In an action involving the
validity or infringement of a patent the party
asserting invalidity or non-infringement shall give
notice in the pleadings or otherwise in writing to
the adverse party at least thirty days before the
trial, of the country, number, date, and name of the
patentee of any patent, the title, date, and page
numbers of any publication to be relied upon as
anticipation of the patent in suit or, except in
actions in the United States Court of Federal
Claims, as showing the state of the art, and the
name and address of any person who may be relied
upon as the prior inventor or as having prior
knowledge of or as having previously used or
offered for sale the invention of the patent in suit.
In the absence of such notice proof of the said
matters may not be made at the trial except on
such terms as the court requires. Invalidity of the
extension of a patent term or any portion thereof
under section 154(b) or 156 because of the material
failure—
(1) by the applicant for the extension, or
(2) by the Director, to comply with the requirements of such section shall be a defense in
any action involving the infringement of a
patent during the period of the extension of
its term and shall be pleaded. A due diligence determination under section 156(d)(2)
is not subject to review in such an action.

App.71a
35 U.S.C. § 301.—
Citation of Prior Art and Written Statements
(a) In General.—Any person at any time may
cite to the Office in writing—
(1) prior art consisting of patents or printed
publications which that person believes to
have a bearing on the patentability of any
claim of a particular patent; or
(2) statements of the patent owner filed in a
proceeding before a Federal court or the
Office in which the patent owner took a
position on the scope of any claim of a particular patent.
(b) Official File.—If the person citing prior art
or written statements pursuant to subsection (a)
explains in writing the pertinence and manner of
applying the prior art or written statements to at
least 1 claim of the patent, the citation of the prior
art or written statements and the explanation
thereof shall become a part of the official file of
the patent.
(c) Additional Information.—A party that submits
a written statement pursuant to subsection (a)(2)
shall include any other documents, pleadings, or
evidence from the proceeding in which the statement was filed that addresses the written statement.
(d) Limitations.—A written statement submitted pursuant to subsection (a)(2), and additional
information submitted pursuant to subsection (c),
shall not be considered by the Office for any purpose other than to determine the proper mean-

App.72a
ing of a patent claim in a proceeding that is
ordered or instituted pursuant to section 304, 314,
or 324. If any such written statement or additional
information is subject to an applicable protective
order, such statement or information shall be
redacted to exclude information that is subject to
that order.
(e) Confidentiality.—Upon the written request
of the person citing prior art or written statements pursuant to subsection (a), that person’s
identity shall be excluded from the patent file
and kept confidential.
35 U.S.C. § 302.—Request for Reexamination
Any person at any time may file a request for
reexamination by the Office of any claim of a
patent on the basis of any prior art cited under the
provisions of section 301. The request must be in
writing and must be accompanied by payment of a
reexamination fee established by the Director
pursuant to the provisions of section 41. The
request must set forth the pertinency and manner
of applying cited prior art to every claim for which
reexamination is requested. Unless the requesting
person is the owner of the patent, the Director
promptly will send a copy of the request to the
owner of record of the patent.
35 U.S.C. § 303.—Determination of issue by Director
(a) Within three months following the filing of
a request for reexamination under the provisions
of section 302, the Director will determine whether
a substantial new question of patentability
affecting any claim of the patent concerned is

App.73a
raised by the request, with or without consideration of other patents or printed publications.
On his own initiative, and any time, the Director
may determine whether a substantial new question
of patentability is raised by patents and publications discovered by him or cited under the
provisions of section 301 or 302. The existence of
a substantial new question of patentability is not
precluded by the fact that a patent or printed
publication was previously cited by or to the Office
or considered by the Office.
[* * * ]
(c) A determination by the Director pursuant to
subsection (a) of this section that no substantial
new question of patentability has been raised will
be final and nonappealable. Upon such a determination, the Director may refund a portion of the
reexamination fee required under section 302.
35 U.S.C. § 304. Reexamination Order by Director
If, in a determination made under the provisions
of subsection 303(a), the Director finds that a
substantial new question of patentability affecting
any claim of a patent is raised, the determination
will include an order for reexamination of the
patent for resolution of the question. The patent
owner will be given a reasonable period, not less
than two months from the date a copy of the determination is given or mailed to him, within
which he may file a statement on such question,
including any amendment to his patent and new
claim or claims he may wish to propose, for
consideration in the reexamination. If the patent
owner files such a statement, he promptly will

App.74a
serve a copy of it on the person who has requested
reexamination under the provisions of section 302.
Within a period of two months from the date of
service, that person may file and have considered
in the reexamination a reply to any statement filed
by the patent owner. That person promptly will
serve on the patent owner a copy of any reply filed.
35 U.S.C. § 305.—
Conduct of Reexamination Proceedings
After the times for filing the statement and reply
provided for by section 304 have expired, reexamination will be conducted according to the procedures established for initial examination under
the provisions of sections 132 and 133. In any
reexamination proceeding under this chapter, the
patent owner will be permitted to propose any
amendment to his patent and a new claim or
claims thereto, in order to distinguish the invention
as claimed from the prior art cited under the
provisions of section 301, or in response to a
decision adverse to the patentability of a claim of
a patent. No proposed amended or new claim
enlarging the scope of a claim of the patent will
be permitted in a reexamination proceeding under
this chapter. All reexamination proceedings under
this section, including any appeal to the Patent
Trial and Appeal Board, will be conducted with
special dispatch within the Office.
35 U.S.C. § 306.—Appeal
The patent owner involved in a reexamination
proceeding under this chapter may appeal under
the provisions of section 134, and may seek court

App.75a
review under the provisions of sections 141 to 144,
with respect to any decision adverse to the
patentability of any original or proposed amended
or new claim of the patent.
Fed. Cir. R. 36.
Entry of Judgment—Judgment of Affirmance
Without Opinion
The court may enter a judgment of affirmance
without opinion, citing this rule, when it determines that any of the following conditions exist
and an opinion would have no precedential
value:
(a) the judgment, decision, or order of the trial
court appealed from is based on findings
that are not clearly erroneous;
(b) the evidence supporting the jury’s verdict is
sufficient;
(c) the record supports summary judgment, directed verdict, or judgment on the pleadings;
(d) the decision of an administrative agency
warrants affirmance under the standard of
review in the statute authorizing the petition
for review; or
(e) a judgment or decision has been entered
without an error of law.
The patent owner involved in a reexamination
proceeding under this chapter may appeal under
the provisions of section

App.76a
ACTS OF THE TWENTY-FOURTH CONGRESS
TWENTY-FOURTH CONGRESS.
Sess. I. Ch. 357. 1836
CHAP. CCCLVII.—Act to Promote the Progress of
Useful Arts, and to Repeal All Acts and Parts of Acts
Heretofore Made for That Purpose.(a)
BE

SENATE AND HOUSE OF
REPRESENTATIVES OF THE UNITED STATES OF AMERICA
IN CONGRESS ASSEMBLED, That there shall be
established and attached to the Department of State,
an office to be denominated the Patent Office; the
chief officer of which shall be called the
Commissioner of Patents, to be appointed by the
President, by and with the advice and consent of the
Senate, whose duty it shall be, under the direction of
the Secretary of State, to superintend, execute, and
perform, all such acts and things touching and
respecting the granting and issuing of patents for new
and useful discoveries, inventions, and improvements, as are herein provided for, or shall
hereafter be, by law, directed to be done and
performed, and shall have the charge and custody of
all the books, records, papers, models, machines, and
all other things belonging to said office. And said
Commissioner shall receive the same compensation as
is allowed by law to the Commissioner of the Indian
Department, and shall be entitled to send and receive
IT ENACTED BY THE

(a) For notes of the acts relating to patents for useful inventions,
see vol. 1, 109, 318. Notes of the decisions of the courts of the
United States on patents for useful inventions, vol. 1, 109, 318.

App.77a
letters and packages by mail, relating to the business
of the office, free of postage.
Sec. 2. AND BE IT FURTHER ENACTED, That there
shall be, in said office, an inferior officer, to be appointed by the said principal officer, with the approval of
the Secretary of State, to receive an annual salary of
seventeen hundred dollars, and to be called the Chief
Clerk of the Patent Office; who, in all cases during
the necessary absence of the Commissioner, or when
the said principal office shall become vacant, shall
have the charge and custody of the seal, and of the
records, books, papers, machines, models, and all
other things belonging to the said office, and shall
perform the duties of Commissioner during such
vacancy. And the said Commissioner may also, with
like approval, appoint an examining clerk, at an
annual salary of fifteen hundred dollars; two other
clerks at twelve hundred dollars each, one of whom
shall be a competent draughtsman; one other clerk at
one thousand dollars; a machinist at twelve hundred
and fifty dollars; and a messenger at seven hundred
dollars. And said Commissioner, clerks, and every
other person appointed and employed in said office,
shall be disqualified and interdicted from acquiring
or taking, except by inheritance, during the period for
which they shall hold their appointments, respectively,
any right or interest, directly or indirectly, in any
patent for an invention or discovery which has been,
or may hereafter be, granted.
Sec. 3. AND BE IT FURTHER ENACTED, That the
said principal officer, and every other person to be
appointed in the said office, shall, before he enters
upon the duties of his office or appointment, make
oath or affirmation, truly and faithfully to execute

App.78a
the trust committed to him. And the said
Commissioner and the chief clerk shall also, before
entering upon their duties, severally give bonds with
sureties to the Treasurer of the United States, the
former in the sum of ten thousand dollars, and the
latter in the sum of five thousand dollars, with
condition to render a true and faithful account to him
or his successor in office, quarterly, of all moneys
which shall be by them respectively received for
duties on patents, and for copies of records and
drawings, and all other moneys received by virtue of
said office.
Sec. 4. AND BE IT FURTHER ENACTED, That the
said Commissioner shall cause a seal to be made and
provided for the said office, with such device as the
President of the United States shall approve; and
copies of any records, books, papers, or drawings,
belonging to the said office, under the signature of
the said Commissioner, or, when the office shall be
vacant, under the signature of the chief clerk, with
the said seal affixed, shall be competent evidence in
all cases in which the original records, books, papers,
or drawings, could be evidence. And any person making
application therefor, may have certified copies of the
records, drawings, and other papers deposited in said
office, on paying, for the written copies, the sum of
ten cents for every page of one hundred words; and
for copies of drawings, the reasonable expense of
making the same.
Sec. 5. AND BE IT FURTHER ENACTED, That all
patents issued from said office shall be issued in the
name of the United States and under the seal of said
office, and be signed by the Secretary of State, and
countersigned by the Commissioner of the said office,

App.79a
and shall be recorded, together with the descriptions,
specifications, and drawings, in the said office, in
books to be kept for that purpose. Every such patent
shall contain a short description or title of the
invention or discovery, correctly indicating its nature
and design, and in its terms grant to the applicant or
applicants, his or their heirs, administrators, executors,
or assigns, for a term not exceeding fourteen years,
the full and exclusive right and liberty of making,
using, and vending to others to be used, the said
invention or discovery, referring to the specifications
for the particulars thereof, a copy of which shall be
annexed to the patent, specifying what the patentee
claims as his invention or discovery.
Sec. 6. AND BE IT FURTHER ENACTED, That any
person or persons having discovered or invented any
new and useful art, machine, manufacture, or composition of matter, or any new and useful improvement on
any art, machine, manufacture, or composition of
matter, not known or used by others before his or
their discovery or invention thereof, and not, at the
time of his application for a patent, in public use or
on sale, with his consent or allowance, as the inventor
or discoverer; and shall desire to obtain an exclusive
property therein, may make application in writing to
the Commissioner of Patents, expressing such desire,
and the Commissioner, on due proceedings had, may
grant a patent therefor. But before any inventor shall
receive a patent for any such new invention or
discovery, he shall deliver a written description of his
invention or discovery, and of the manner and process
of making, constructing, using, and compounding the
same, in such full, clear, and exact terms, avoiding
unnecessary prolixity, as to enable any person skilled

App.80a
in the art or science to which it appertains, or with
which it is most nearly connected, to make, construct,
compound, and use the same; and in case of any
machine, he shall fully explain the principle and the
several modes in which he has contemplated the
application of that principle or character by which it
may be distinguished from other inventions; and shall
particularly specify and point out the part,
improvement, or combination, which he claims as his
own invention or discovery. He shall, furthermore,
accompany the whole with a drawing, or drawings,
and written references, where the nature of the case
admits of drawings, or with specimens of ingredients,
and of the composition of matter, sufficient in quantity
for the purpose of experiment, where the invention or
discovery is of a composition of matter; which descriptions and drawings, signed by the inventor and attested
by two witnesses, shall be filed in the Patent Office;
and he shall moreover furnish a model of his invention,
in all cases which admit of a representation by
model, of a convenient size to exhibit advantageously
its several parts. The applicant shall also make oath or
affirmation that he does verily believe that he is the
original and first inventor or discoverer of the art,
machine, composition, or improvement, for which he
solicits a patent, and that he does not know or
believe that the same was ever before known or used;
and also of what country he is a citizen; which oath or
affirmation may be made before any person authorized
by law to administer oaths.
Sec. 7. AND BE IT FURTHER ENACTED, That, on the
filing of any such application, description, and specification, and the payment of the duty hereinafter
provided, the Commissioner shall make or cause to

App.81a
be made, an examination of the alleged new invention
or discovery; and if, on any such examination, it shall
not appear to the Commissioner that the same had been
invented or discovered by any other person in this
country prior to the alleged invention or discovery
thereof by the applicant, or that it had been patented
or described in any printed publication in this or any
foreign country, or had been in public use or on sale
with the applicant’s consent or allowance prior to the
application, if the Commissioner shall deem it to be
sufficiently useful and important, it shall be his duty
to issue a patent therefor. But whenever, on such
examination, it shall appear to the Commissioner that
the applicant was not the original and first inventor
or discoverer thereof, or that any part of that which
is claimed as new had before been invented or
discovered, or patented, or described in any printed
publication in this or any foreign country, as aforesaid,
or that the description is defective and insufficient,
he shall notify the applicant thereof, giving him,
briefly, ouch information and references as may be
useful in judging of the propriety of renewing his
application, or of altering his specification to embrace
only that part of the invention or discovery which is
new. In every such case, if the applicant shall elect to
withdraw his application, relinquishing his claim to
the model, he shall be entitled to receive back twenty
dollars, part of the duty required by this act, on filing
a notice in writing of such election in the Patent
Office, a copy of which, certified by the Commissioner,
shall be a sufficient warrant to the Treasurer for
paying back to the said applicant the said sum of
twenty dollars. But if the applicant in such case shall
persist in his claim for a patent, with or without any
alteration of his specification, he shall be required to

App.82a
make oath or affirmation anew, in manner as aforesaid.
And if the specification and claim shall not have been
so modified as, in the opinion of the Commissioner,
shall entitle the applicant to a patent, he may, on
appeal, and upon request in writing, have the decision
of a board of examiners, to be composed of three
disinterested persons, who shall be appointed for
that purpose by the Secretary of State, one of whom
at least, to be selected, if practicable and convenient,
for his knowledge and skill in the particular art,
manufacture, or branch of science to which the alleged
invention appertains; who shall be under oath or
affirmation for the faithful and impartial performance
of the duty imposed upon them by said appointment.
Said board shall be furnished with a certificate in
writing, of the opinion and decision of the Commissioner, stating the particular grounds of his objection,
and the part or parts of the invention which he
considers as not entitled to be patented. And the said
board shall give reasonable notice to the applicant,
as well as to the Commissioner, of the time and place
of their meeting, that they may have an opportunity
of furnishing them with such facts and evidence as
they may deem necessary to a just decision; and it shall
be the duty of the Commissioner to furnish to the
board of examiners such information as he may possess
relative to the matter under their consideration. And
on an examination and consideration of the matter
by such board, it shall be in their power, or of a
majority of them, to reverse the decision of the
Commissioner, either in whole or in part, and their
opinion being certified to the Commissioner, he shall
be governed thereby in the further proceedings to be
had on such application. PROVIDED, HOWEVER, That
before a board shall be instituted in any such case,

App.83a
the applicant shall pay to the credit of the Treasury,
as provided in the ninth section of this act, the sum
of twenty-five dollars, and each of said persons so
appointed shall be entitled to receive for his services
in each case a sum not exceeding ten dollars, to be
determined and paid by the Commissioner out of any
moneys in his hands, which shall be in full compensation to the persons who may be so appointed, for
their examination and certificate as aforesaid.
Sec. 8. AND BE IT FURTHER ENACTED, That whenever an application shall be made for a patent which,
in the opinion of the Commissioner, would interfere
with any other patent for which an application may
be pending, or with any unexpired patent which shall
have been granted, it shall be the duty of the
Commissioner to give notice thereof to such applicants,
or patentees, as the case may be; and if either shall
be dissatisfied with the decision of the Commissioner
on the question of priority of right or invention, on a
hearing thereof, he may appeal from such decision,
on the like terms and conditions as are provided in
the preceding section of this act; and the like
proceedings shall be had, to determine which or
whether either of the applicants is entitled to receive
a patent as prayed for. But nothing in this act contained
shall be construed to deprive an original and true
inventor of the right to a patent for his invention, by
reason of his having previously taken out letters
patent therefor in a foreign country, and the same
having been published, at any time within six months
next preceding the filing of his specification and
drawings. And whenever the applicant shall request
it, the patent shall take date from the time of the
filing of the specification and drawings, not however

App.84a
exceeding six months prior to the actual issuing of
the patent; and on like request, and the payment of
the duty herein required, by any applicant, his
specification and drawings shall be filed in the secret
archives of the office until he shall furnish the model
and the patent be issued, not exceeding the term of
one year, the applicant being entitled to notice of
interfering applications.
Sec. 9. AND BE IT FURTHER ENACTED, That before
any application for a patent shall he considered by
the commissioner as aforesaid, the applicant shall
pay into the Treasury of the United States, or into
the Patent Office, or into any of the deposit banks to
the credit of the Treasury, if he be a citizen of the
United States, or an alien, and shall have been resident
in the United States for one year next preceding, and
shall have made oath of his intention to become a
citizen thereof, the sum of thirty dollars; if a subject
of the King of Great Britain, the sum of five hundred
dollars; and all other persons the sum of three hundred
dollars; for which payment duplicate receipts shall be
taken, one of which to be filed in the office of the
Treasurer. And the moneys received into the Treasury
under this act shall constitute a fund for the payment
of the salaries of the officers and clerks herein
provided for, and all other expenses of the Patent
Office, and to be called the patent fund.
Sec. 10. AND BE IT FURTHER ENACTED, That where
any person hath made, or shall have made, any new
invention, discovery, or improvement, on account of
which a patent might by virtue of this act be granted,
and such person shall die before any patent shall be
granted therefor, the right of applying for and obtaining
such patent shall devolve on the executor or

App.85a
administrator of such person, in trust for the heirs at
law of the deceased, in case he shall have died
intestate; but if otherwise, then in trust for his
devisees, in as full and ample manner, and under the
same conditions, limitations, and restrictions, as the
same was held, or might have been claimed or
enjoyed by such person in his or her lifetime; and
when application for a patent shall be made by
such legal representatives, the oath or affirmation
provided in the sixth section of this act shall be so
varied as to be applicable to them.
Sec. 11. AND BE IT FURTHER ENACTED, That every
patent shall be assignable in law, either as to the
whole interest, or any undivided part thereof, by any
instrument in writing ; which assignment, and also
every grant and conveyance of the exclusive right
under any patent, to make and use, and to grant to
others to make and use, the thing patented within
and throughout any specified part or portion of the
United States, shall be recorded in the Patent Office
within three months from the execution thereof, for
which the assignee or grantee shall pay to the
Commissioner the sum of three dollars.
Sec. 12. AND BE IT FURTHER ENACTED, That any
citizen of the United States, or alien who shall have
been resident in the United States one year next
preceding, and shall have made oath of his intention
to become a citizen thereof, who shall have invented
any new art, machine, or improvement thereof, and
shall desire further time to mature the same, may, on
paying to the credit of the Treasury, in mariner as
provided in the ninth section of this act, the sum of
twenty dollars, file in the Patent Office a caveat,
setting forth the design and purpose thereof, and its

App.86a
principal and distinguishing characteristics, and
praying protection of his right till he shall have
matured his invention; which sum of twenty dollars,
in case the person filing such caveat shall afterwards
take out a patent for the invention therein
mentioned, shall be considered a part of the sum
herein required for the same. And such caveat shall
be filed in the confidential archives of the office, and
preserved in secrecy. And if application shall be made
by any other person within one year from the time of
filing such caveat, for a patent of any invention with
which it may in any respect interfere, it shall be the
duty of the Commissioner to deposit the description,
specifications, drawings, and model, in the confidential archives of the office, and to give notice, by snail,
to the person filing the caveat, of such application,
who shall, within three months after receiving the
notice, if he would avail himself of the benefit of his
caveat, file his description, specifications, drawings,
and model; and if, in the opinion of the Commissioner,
the specifications of claim interfere with each other,
like proceedings may be had in all respects as are in
this act provided in the case of interfering applications.
PROVIDED, HOWEVER, That no opinion or decision of
any board of examiners, under the provisions of this
act, shall preclude any person interested in favor of
or against the validity of any patent which has been
or may hereafter be granted, from the right to contest
the same in any judicial court in any action in which
its validity may come in question.
Sec. 13. AND BE IT FURTHER ENACTED, That whenever any patent which has heretofore been granted, or
which shall hereafter be granted, shall be inoperative,
or invalid, by reason of a defective or insufficient

App.87a
description or specification, or by reason of the patentee
claiming in his specification as his own invention,
more than he had or shall have a right to claim as
new; if the error has, or shall have arisen by
inadvertency, accident, or mistake, and without any
fraudulent or deceptive intention, it shall be lawful
for the Commissioner, upon the surrender to him of
such patent, and the payment of the further duty of
fifteen dollars, to cause a new patent to be issued to
the said inventor, for the same invention, for the
residue of the period then unexpired for which the
original patent was granted, in accordance with the
patentee’s corrected description and specification.
And in case of his death, or any Augment by him made
of the original patent, a similar right shall vest in his
executors, administrators, or assignees. And the patent,
so reissued, together with the corrected description
and specification, shall have the same effect and
operation in law, on the trial of all actions hereafter
commenced for causes subsequently accruing, as though
the same had been originally filed in such corrected
form, before the issuing out of the original patent.
And whenever the original patentee shall be desirous
of adding the description and specification of any new
improvement of the original invention or discovery
which shall have been invented or discovered by him
subsequent to the date of his patent, he may, like
proceedings being had in all respects as in the case of
original applications, and on the payment of fifteen
dollars, as herein-before provided, have the same
annexed to the original description and specification;
and the Commissioner shall certify, on the margin of
such annexed description and specification, the time
of its being annexed and recorded; and the same shall
thereafter have the same effect in law, to all intents

App.88a
and purposes, as though it had been embraced in the
original description and specification.
Sec. 14. AND BE IT FURTHER ENACTED, That
whenever, in any action for damages for making,
using, or selling the thing whereof the exclusive right
is secured by any patent heretofore granted, or by any
patent which may hereafter be granted, a verdict
shall be rendered for the plaintiff in such action, it
shall be in the power of the court to render judgment
for any sum above the amount found by such verdict
as the actual damages sustained by the plaintiff, not
exceeding three times the amount thereof, according
to the circumstances of the case, with costs ; and
such damages may be recovered by action on the
case, in any court of competent jurisdiction, to be
brought in the name or names of the person or persons
interested, whether as patentees, assignees, or as
grantees of the exclusive right within and throughout
a specified part of the United States.
Sec. 15. AND BE IT FURTHER ENACTED, That the
defendant in any such action shall be permitted to
plead the general issue, and to give this act and any
special matter in evidence, of which notice in writing
may have been given to the plaintiff or his attorney,
thirty days before trial, tending to prove that the
description and specification filed by plaintiff does
not contain the whole truth relative to his invention
or discovery, or that it contains more than is necessary
to produce the described effect; which concealment or
addition shall fully appear to have been made for the
purpose of deceiving the public, or that the patentee
was not the original and first inventor or discoverer
of the thing patented, or of a substantial and material
part thereof claimed as new, or that it had been

App.89a
described in some public work anterior to the supposed
discovery thereof by the patentee, or had been in
public use, or on sale, with the consent and allowance
of the patentee before his application for a patent, or
that he had surreptitiously or unjustly obtained the
patent for that which was in fact invented or discovered
by another, who was using reasonable diligence in
adapting and perfecting the same; or that the patentee,
if an alien at the time the patent was granted, had
failed and neglected for the space of eighteen months
from the date of the patent, to put and continue on
sale to the public, on reasonable terms, the invention
or discovery for which the patent issued; in either of
which cases judgment shall be rendered for the
defendant, with costs. And whenever the defendant
relies in his defense on the fact of a previous invention,
knowledge, or use of the thing patented, he shall
state, in his notice of special matter, the names and
places of residence of those whom he intends to prove
to have possessed a prior knowledge of the thing, and
where the same had been used: PROVIDED, HOWEVER,
That whenever it shall satisfactorily appear that the
patentee, at the time of making his application for
the patent, believed himself to be the first inventor or
discoverer of the thing patented, the same shall not
be held to be void on account of the invention or
discovery or any part thereof having been before known
or used in any foreign country, it not appearing that
the same or any substantial part thereof had before
been patented or described in any printed publication.
AND PROVIDED, ALSO, That whenever the plaintiff
shall fail to sustain his action on the ground that in
his specification of claim is embraced more than that
of which he was the first inventor, if it shall appear
that the defendant had used or violated any part of

App.90a
the invention justly and truly specified and claimed
as new, it shall be in the power of the court to adjudge
and award as to costs as may appear to be just and
equitable.
Sec. 16. AND BE IT FARTHER ENACTED, That whenever there shall be two interfering patents, or whenever
a patent on application shall have been refused on an
adverse decision of a board of examiners, on the ground
that the patent applied for would interfere with an
unexpired patent previously granted, any person
interested in any such patent, either by assignment
or otherwise, in the one case, and any such applicant
in the other case, may have remedy by bill in equity;
and the court having cognizance thereof, on notice to
adverse parties and other due proceedings had, may
adjudge and declare either the patents void in the
whole or in part, or inoperative and invalid in any
particular part or portion of the United States,
according to the interest which the parties to such
suit may possess in the patent or the inventions
patented, and may also adjudge that such applicant
is entitled, according to the principles and provisions
of this act, to have and receive a patent for his
invention, as specified in his claim, or for any part
thereof, as the fact of priority of right or invention
shall in any such case be made to appear. And such
adjudication, if it be in favor of the right of such
applicant, shall authorize the Commissioner to issue
such patent, on his filing a copy of the adjudication,
and otherwise complying with the requisitions of this
act. PROVIDED, HOWEVER, That no such judgment or
adjudication shall affect the rights of any person
except the parties to the action and those deriving

App.91a
title from or under them subsequent to the rendition
of such judgment.
Sec. 17. AND BE IT FURTHER ENACTED, That all
actions, suits, controversies, and cases arising under
any law of the United States, granting or confirming to
inventors the exclusive right to their inventions or
discoveries, shall be originally cognizable, as well in
equity as at law, by the circuit courts of the United
States, or any district court having the powers and
jurisdiction of a circuit court; which courts shall have
power, upon bill in equity filed by any party
aggrieved, in any such case, to grant injunctions,
according to the course and principles of courts of
equity, to prevent the violation of the rights of any
inventor as secured to him by any law of the United
States, on such terms and conditions as said courts
may deem reasonable: PROVIDED, HOWEVER, That
from all judgments and decrees, from any such court
rendered in the premises, a writ of error or appeal, as
the Case may require, shall lie to the Supreme Court
of the United States, in the same manner and under
the same circumstances as is now provided by law in
other judgments and decrees of circuit courts, and in
all other cases in which the court shall deem it
reasonable to allow the same.
Sec. 18. AND BE IT FURTHER ENACTED, That whenever any patentee of an invention or discovery shall
desire an extension of his patent beyond the term of
its limitation, he may make application therefor, in
writing, to the Commissioner of the Patent Office,
setting forth the grounds thereof; and the Commissioner
shall, on the applicant’s paying the sum of forty
dollars to the credit of the Treasury, as in the case of
an original application for a patent, cause to be

App.92a
published, in one or more of the principal newspapers
in the city of Washington, and in such other paper or
papers as he may deem proper, published in the section
of country most interested adversely to the extension
of the patent, a notice of such application and of the
time and place when and where the same will be
considered, that any person may appear and show cause
why the extension should not be granted. And the
Secretary of State, the Commissioner of the Patent
Office, and the Solicitor of the Treasury, shall constitute
a board to hear and decide upon the evidence produced
before them both for and against the extension, and
shall sit for that purpose at the time and place
designated in the published notice thereof. The patentee
shall furnish to said board a statement, in writing,
under oath, of the ascertained value of the invention,
and of his receipts and expenditures, sufficiently in
detail to exhibit a true and faithful account of loss
and profit in any manner accruing to him from and
by reason of said invention. And if, upon a hearing of
the matter, it shall appear to the full and entire
satisfaction of said board, having due regard to the
public interest therein, that it is jest and proper that
the term of the patent should be extended, by reason
of the patentee, without neglect or fault on his part,
having failed to obtain, from the use and sale of his
invention, a reasonable remuneration for the time,
ingenuity, and expense bestowed upon-the same, and
the introduction thereof into use, it shall be the duty
of the Commissioner to renew and extend the patent,
by making a certificate thereon of such extension, for
the term of seven years from and after the expiration
of the first term ; which certificate, with a certificate
of said board of their judgment and opinion as aforesaid,
shall be entered on record in the Patent Office; and

App.93a
thereupon the said patent shall have the same effect
in law as though it had been originally granted for
the term of twenty-one years. And the benefit of such
renewal shall extend to assignees and grantees of the
right to use the thing patented, to the extent of their
respective interest therein: PROVIDED, HOWEVER, That
no extension of a patent shall be granted after the
expiration of the term for which it was originally
issued.
Sec. 19. AND BE IT FURTHER ENACTED, That there
shall be provided for the use of said office, a library of
scientific works and periodical publications, both
foreign and American, calculated to facilitate the discharge of the duties hereby required of the chief
officers therein, to be purchased under the direction
of the Committee of the Library of Congress. And the
sum of fifteen hundred dollars is hereby appropriated,
for that purpose, to he paid out of the patent fund.
Sec. 20. AND BE IT FURTHER ENACTED, That it
shall be the duty of the Commissioner to cause to be
classified and arranged, in such rooms or galleries as
may be provided for that purpose, in suitable cases,
when necessary for their preservation, and in such
manner as shall be conducive to a beneficial and
favorable display thereof, the models and specimens
of compositions and of fabrics and other manufactures and works of art, patented or unpatented,
which have been, or shall hereafter be deposited in
said office. And said rooms or galleries shall be kept
open during suitable hours for public inspection.
Sec. 21. And be it further enacted, That all acts
and parts of acts heretofore passed on this subject,
be, and the same are hereby repealed : Provided’,
however, That all actions and processes in law or

App.94a
equity sued out prior to the passage of this act, may
be prosecuted to final judgment and execution, in the
same manner as though this act had not been passed,
excepting and saving the application to any such action,
of the provisions of the fourteenth and fifteenth
sections of this act, so far as they may be applicable
thereto: AND PROVIDED, ALSO, That all applications or
petitions for patents, pending at the time of the
passage of this act, in cases where the duty has been
paid, shall be proceeded with and acted on in the
same manner as though filed after the passage hereof.
APPROVED, July 4, 1836.

App.95a
BRIEF OF PLAINTIFF APPELLANT
TECH PROPERTIES LTD,
RELEVANT EXCERPTS
(MARCH 10, 2016)
IN THE UNITED STATED COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
________________________
TECHNOLOGY PROPERTIES LIMITED LLC,
PHOENIX DIGITAL SOLUTIONS LLC,
PATRIOT SCIENTIFIC CORPORATION,

Plaintiffs-Appellants,
v.
HUAWEI TECHNOLOGIES CO., LTD.,
FUTUREWEI TECHNOLOGIES, INC.,
HUAWEI DEVICE CO., LTD., HUAWEI DEVICE
USA INC., HUAWEI TECHNOLOGIES USA INC.,
ZTE CORPORATION, ZTE USA, INC.,
SAMSUNG ELECTRONICS CO., LTD.,
SAMSUNG ELECTRONICS AMERICA, INC.,
LG ELECTRONICS, INC., LG ELECTRONICS
U.S.A., INC., NINTENDO CO., LTD.,
NINTENDO OF AMERICA, INC.,

Defendants-Appellees.

________________________

Appeals from the United States District Court for the
Northern District of California in Nos. 3:12-cv-03865VC, 3:12-cv-03876-VC, 3:12-cv-03877-VC,
3:12-cv-03880-VC, 3:12-cv-03881-VC,
The Honorable Vince Chhabria Judge Presiding.

App.96a

William L. Bretschneider
SILICON VALLEY LAW GROUP
50 W. San Fernando Street
Suite 750
San Jose, CA 95113
(408) 573-5700

Counsel for Technology Properties Limited LLC

Barry J. Bumgardner
NELSON BUMGARDNER, P.C.
3131 West 7th Street
Suite 300
Fort Worth, TX 76107
(817) 377-9111

Counsel for Phoenix Digital Solutions LLC

Charles T. Hoge
Kirby Noonan Lance & Hoge LLP
350 Tenth Avenue, Suite 1300
San Diego, CA 92101
(619) 231-8666

Counsel for Patriot Scientific Corporation

App.97a
BRIEF OF PLAINTIFFS-APPELLANTS TECHNOLOGY
PROPERTIES LIMITED LLC, PHOENIX DIGITAL SOLUTIONS,
LLC & PATRIOT SCIENTIFIC CORPORATION
[...]
. . . external signal as a reference signal. Appellants,
on the other hand, believe that whatever disclaimers
were made, they do not exclude all control signals or
the use of a reference signal.
F.

Claim Construction History

The claims of the ’336 Patent have been construed
several times as part of the lawsuits in which the
’336 Patent was asserted. While other phrases may
have also been at issue, the phrase “an entire oscillator
disposed upon said integrated circuit substrate” (or
some variant thereof found in other claims of the ’336
Patent) was always front and center in the various
claim construction disputes.6 Thus, for the better
part of a decade, parties have been arguing in various
forums whether the term entire oscillator allows for
the use of an external crystal or clock generator as a
reference signal and what type of control can be exerted
over the oscillator.
Questions about the use of an external crystal
arise from statements made by the Applicants during
the prosecution of the ’336 Patent in distinguishing
the then pending claims over U.S. Patent No. 4,503,500
(“Magar”). Appx 2042-74. Questions regarding what
control of the oscillator is permitted arise from
6 The specific phrase “an entire oscillator disposed upon said
integrated circuit substrate” is found in Claims 6 and 13 of the
’336 Patent. These claims have both been asserted in the
underlying district court litigation.

App.98a
statements made concerning U.S. Patent No. 4,670,837
(“Sheets”). Appx 3496-503. The statements that constitute the alleged disclaimers are found in four responses
to various office actions from the patent office. See
Appx 2090-7 (Response to Office Action (mailed July
3, 1997)), Appx 2099-108 (Response to Office Action
(February 6, 1998)), Appx 2110-22 (Response to Office
Action (mailed April 11, 1996)), and Appx 2124-38
(Response to Office Action (mailed January 8, 1997)).
Below is a summary of how various courts have
construed the entire oscillator term:
Date

June 2007

Court

EDTX

Term

an entire ring oscillator variable
speed system clock in said integrated
circuit

Construction
(disclaimer
underlined)

a ring oscillator variable speed
system clock that is located entirely
on the same semiconductor substrate
as the CPU and does not directly rely
on a command input control signal or
an external crystal/clock generator to
generate a clock signal

Date

April 2013

Court

ITC

Term

an entire ring oscillator variable
speed system clock in said single
integrated circuit

Construction

a ring oscillator variable speed sys-

App.99a
(disclaimer
underlined)

tem clock that is located entirely on
the same semiconductor substrate
as the central processing unit and
does not rely on a control signal or
an external crystal/clock generator
to generate a clock signal

Date

August 2013

Court

NDCA

Term

ring oscillator

Construction
(disclaimer
underlined)

an oscillator having a multiple, odd
number of inversions arranged in a
loop, wherein the oscillator is variable based on the temperature, voltage and process parameters in the
environment

Date

September 2015 (the decision under
appeal here)

Court

NDCA

Term

an entire oscillator disposed upon
said integrated circuit substrate

Construction
(disclaimer
underlined)

an oscillator located entirely on the
same semiconductor substrate as
the central processing unit that
does not require a control signal
and whose frequency is not fixed by
any external crystal7

7 The terms “oscillator” and “central processing unit” terms,
standing alone, were the subject of constructions that were not

App.100a
Note that only the present claim construction under
appeal broadens the disclaimer beyond crystals that
“generate” a clock signal.
In June 2007, a related phrase, “an entire ring
oscillator variable speed system clock in said integrated
circuit,” was construed by the United States District
Court for the Eastern District of Texas. Appx 223360 (Memorandum and Order, Technology Properties
Ltd. et al. v. Matsushita Elec. Indus. Co., Ltd., et al.,
Case No. 2:05-cv-494 (No. 259) (E.D. Tex., June 15,
2007) (the “Texas Markman Order”)). In the Texas
proceeding, the court analyzed the intrinsic record
presently cited by Appellees in this case and found
that the term meant “a ring oscillator variable speed
system clock that is located entirely on the same
semiconductor substrate as the CPU and does not
directly rely on a command input control signal or an
external crystal/clock generator to generate a clock
signal.” Appx 2244 (Id. at 12 (emphasis added)). The
court in Texas specifically considered (i) whether the
prosecution history prohibited the use of a crystal or
external clock, or whether the external clock could be
used as a reference, and (ii) whether the prosecution
history prohibited the use of control signals such as
voltage and current control signals, or the more narrow
“command input control signals.” Id. The Texas court
found that an external crystal/clock generator could
not be used for generating a clock signal, but left
open the possible use of an external crystal/clock
generator for a reference signal. The Texas Markman
Order specifically rejected the prior defendant’s
proposed construction that the “ring oscillator” could
disputed by the parties.

App.101a
not “rely on a control signal or an external crystal/clock
generator.” Appx 2243-4 (Id. at 11-12). Instead, the
court adopted a narrower limitation which excluded
“direct” reliance on “command input control signals”
from the scope of the claim term. Id. Lastly, the
Texas court construed the term “ring oscillator” to
mean “an oscillator having a multiple, odd number of
inversions arranged in a loop.” Id.
In 2012, Judge Ware of the Northern District of
California considered the phrase “entire ring oscillator
variable speed system clock.” Appx 1563-6 (First Claim
Construction Order, HTC Corp. v. Technology Properties Ltd., et al., 3:08-cv-882 (No. 364 at 13-16)
(N.D. Cal., June 12, 2012))8 (the “Ware Markman
Order”). In this proceeding, HTC, like the prior defendants in Texas, took the position that the “ring
oscillator” could not “rely on a control signal or an
external crystal/clock generator to generate a clock
signal” and that the speed of the “oscillator” was
“non-controllable.” See, e.g., id. and Appx 1588 (Defendants’ [TPL’s] Opening Claim Construction Brief for
the “Top Ten” Terms, HTC, No. 339 at 8 (N.D. Cal.,
December 23, 2011)).
Judge Ware evaluated the parties’ respective
positions and discussed the plain and ordinary meaning
of a ring oscillator. Appx 1563 (Ware Markman Order
at 13). Other than to state that “a person of ordinary
skill in the art reading the patent would understand
that Claim 1 claims a ‘single integrated circuit,’
fabricated so as to include a ‘ring oscillator’”, Judge
Ware declined to further construe the entire ring
8 Subsequent citations to HTC Corp. v. Technology Properties
Ltd., et al. will be made as “HTC Case.”

App.102a
oscillator variable speed clock term without receiving
additional briefing regarding statements made during
prosecution. Appx1566 (Ware Markman Order at 16).
In other words, the exacting standard for showing
disavowal had not been met and the court asked to
hear more. Judge Ware ordered the supplemental
briefing, subsequently retired, and the HTC Case was
transferred to Judge Grewal.
In the supplemental briefing, the parties continued
to debate the meaning of the ring oscillator. The
supplemental briefing generally covered the disputed
elements of ring oscillator rather than the meaning
of the word entire. After evaluating the parties’
positions and the prosecution history, Judge Grewal
construed the ring oscillator term. Appx1606-23 (Claim
Construction Order, HTC (No. 509) (N.D. Cal., August
21, 2013) (the “HTC Grewal Markman Order”)). He held
that while the frequency of the ring oscillator is
determined by the temperature, voltage, and process,
the prosecution history of the Patent did not “impose
a prohibition on all types of control.” Appx 1615 (Id.
at 10). Thus, in 2013, Judge Grewal declined to include
“non-controllable” in the construction or to prohibit
reliance on an external crystal oscillator in the
construction of the term.
Meanwhile, at the ITC, an administrative law
judge (ALJ) considered the meaning of ring oscillator
and entire oscillator in a proceeding involving all of
the Appellees to the present case. See generally,
Appx 1661-743 (Order No. 31, Construing the Terms
of the Asserted Claims of the Patent at Issue, ITC
Investigation No. 337-TA-853 (April 18, 2013) (the
“ITC Markman Order”)). In the ITC, the Appellees
advocated that the term ring oscillator could “not

App.103a
rely on a control signal or an external crystal/clock
generator to generate a clock signal.” Appx 1683 (Id.
at 20) (emphasis added). As in the HTC Grewal Markman Order, the ITC ultimately held that the ring
oscillator need not be “non-controllable” because there
was no clear and unmistakable disavowal in the
prosecution history. Appx 1704 (Id. at 40). The ITC
Markman Order further declined to add the
temperature, voltage and process limitation because
such limitations were already found in the claims. Id.
The ITC did continue to address the meaning of entire
by construing the term an entire ring oscillator variable
speed system clock in said single integrated circuit.
Here, the ALJ disagreed with Judge Ward’s construction. The ITC held that the term meant “a ring
oscillator variable speed system clock that is located
entirely on the same semiconductor substrate as the
central processing unit and does not rely on a control
signal or an external crystal/clock generator to generate
a clock signal.” Id. (emphasis added). This construction
differed from Judge Ward’s prior construction in that
it modified the previous prohibition against relying on
a “command input control signal” to be a prohibition
against relying on a “control signal.” The construction
also removed the word directly before rely.
After the ITC ruling, HTC (in the Northern District
of California HTC Case) moved for summary judgement. Appx1745-70 (Plaintiffs’ Motion for Summary
Judgment of Non-Infringement, HTC (No. 457) (July
16, 2013)). HTC argued that the entire portion of the
entire oscillator term meant that there could be no
involvement whatsoever of an external crystal in the
function of the oscillator. The court denied HTC’s
motion. Appx 1772-94 (Summary Judgment Order,

App.104a

HTC (No. 585) (September 17, 2013)). While the court
did agree that, as a result of prosecution history, the
claims exclude “any external clock used to generate a
signal” the court recognized that there was some
factual dispute as to whether the clock is generated
on the chip and relies on the PLL (and, thus, the
external crystal) to merely “buffer or fix” the frequency.
Appx 1782 (Id. at 11). Judge Grewal called this a
“classic factual question that requires a trial to
answer.” Id.

After Judge Grewal entered the HTC Summary
Judgment Order, HTC moved on an emergency basis
to attempt to again capture additional claim limitations in the jury instructions. Appx 1796-8 (HTC
Emergency Motion, HTC (No. 590) (September 18,
2013)). Appellants opposed. Appx1800-06 (Defendants’
Opposition to Emergency Motion for Addendum to Jury
Instructions, HTC (No. 596) (September 18, 2013)).
Specifically, HTC asked the court to modify the jury
instructions to indicate that (1) the entire oscillator
term (and its kin) “are not satisfied by an accused
system that uses any external clock to generate a
signal” and (2) “an accused product can only infringe
the ’336 Patent if that product contains an on-chip
oscillator or clock that is (a) self-generating and (b)
does not rely on an input control to determine its
frequency.” Appx1797 (HTC Emergency Motion at 2).
Judge Grewal held that the jury would be instructed
that the term entire oscillator and its kin are properly
understood to “exclude any external clock used to
generate a signal,” but once again declined to add a
restriction with respect to control of the oscillator.
Appx1808-09 (Emergency Motion Order, HTC (No. 607)
(September 20, 2013)) (emphasis added).

App.105a
After trial (where there was a finding of infringement of the ’336 Patent), Judge Grewal considered a
JMOL by HTC which once again touched on the issue
of the entire oscillator. Appx1811-25 (Order Denying
Plaintiffs’ Renewed Motion for Entry of Judgment as
a Matter of Law, HTC (No. 707) (January 21, 2014)).
In its order denying HTC’s JMOL, the court explained
that in considering HTC’s emergency motion regarding
jury instructions, the court specifically considered
HTC’s request for additional claim construction and
explained that the Emergency Motion Order modified
the “external clock to generate a signal” language,
while denying the self-generating/input control language. Appx 1818-19 (Id. at 8-9). The court’s JMOL Order
demonstrated the court’s acute understanding of how
the PLLs involved in the accused HTC products are
used to regulate, not generate the ring oscillator’s
frequency. Appx 1821 (Id. at 11).
Finally, in the case from which this appeal is
taken, Judge Grewal was again presented with the
same issues regarding the entire oscillator term—does
an entire oscillator allow for the use of an externallygenerated reference signal and can it be controlled.
Like HTC, Appellees brought forward the Sheets and
Magar references (discussed in detail below), and
presented substantively the same arguments. In a stark
reversal from his position on the same issues from
2013, Judge Grewal found that the entire oscillator
term is properly construed as “an oscillator located
entirely on the same semiconductor substrate as the
central processing unit that does not require a control
signal and whose frequency is not fixed by any external
crystal.” Appx 7 (Grewal R&R at 2). This construction
was not advanced by any of the parties, but is much

App.106a
closer to what Appellees proposed than Appellants.
Appx 1469 (Patent Local Rule 4-3 Joint Claim
Construction and Prehearing Statement, Exhibit B at
6 (Item No. 16) (listing the parties’ competing
constructions for the entire oscillator term)). Judge
Grewal’s construction incorporates two important,
separate alleged disclaimers. First, the language
“does not require a control signal” prohibits any type
of control of the oscillator, while the “not fixed by any
external crystal” language prohibits the use of an
external reference signal. These two disclaimers arise
from separate references (Magar and Sheets) and are
discussed below.
SUMMARY OF THE ARGUMENT
The extensive claim construction history of the entire
oscillator term exposes the central truth of this case
—if there is some disavowal, such disavowal is not
clear and unambiguous. To the extent that disclaimer
must be included in the construction of the entire
oscillator term, then, it must be narrowly crafted to
exclude only what the Applicants actually argued to
exclude at the patent office.
[...]

App.107a
’336 PATENT FILE HISTORY,
EXAMINER INTERVIEW SUMMARY RECORD
(MAY 13, 1998)
UNITED STATES DEPARTMENT OF COMMERCE
PATENT AND TRADEMARK OFFICE
Washington, D.C. 20231
________________________
Address:
Commissioner of Patents and Trademarks
Washington, D.C. 20231
Serial Number: 08/484/, 918
Filing Date: 06/07/95
First Named Applicant: Moore C
Attorney Docket No.: NANO-001-05U
LM21/0513
Cooley Godward Castro
Huddleson & Tatum
Five Palo Alto Square
3000 El Camino Real
Palo Alto, CA 94306
Examiner Eng, D
Art Unit 2784
Paper Number 17
Examiner Interview Summary Record


All Participants (Applicant, Applicant’s Representative, PTO Personnel):
(1) D. Eng
(2) W. Higgins

App.108a
Date of Interview: 4/23/98


Type:
Telephone

Agreement was reached with respect to some or all of
the claims in question.


Claims discussed:
20, 66, 75, 79, 19, 65, 73, 78



Identification of prior art discussed:
Magar



Description of the general nature of what was
agreed to if an agreement was reached, or any
other comments:
Proposed amendment of claims 20, 66, 75 and 79
and indicated that the amended claims if rewrite
in independent form would be allowable. See
applicant’s amendment filed 4/24/98
/s/ D. Eng
Examiner’s Signature

App.109a
’336 PATENT FILE HISTORY,
SUPPLEMENTAL AMENDMENT
(APRIL 24, 1998)
IN THE UNITED STATES PATENT AND TRADEMARK OFFICE
________________________
In Re Application of Charles H. Moore Et Al.
Serial No. 08/484,918
Files: June 7, 1995
For: High Performance Microprocessor Having
Variable Speed System Clock
Examiner. D. Eng
Art Unit 2784
Palo Alto, CA 94306
Assistant Commissioner for Patents
Washington, D.C. 20231
Sir:
This Supplemental Amendment is being submitted in response to a telephone call on April 23, 1998
from the Examiner in the above-identified patent application.
IN THE CLAIMS
Please amend claims 19, 65, 73 and 78 as follows:
19 (Four Times Amended). A microprocessor system, comprising a single integrated circuit including
a central processing unit and an entire ring oscillator
variable speed system clock in said single integrated
circuit and connected to said central processing unit
for clocking said central processing unit, said central

App.110a
processing unit and said ring oscillator variable speed
system clock each including a plurality of electronic
devices correspondingly constructed of the same
process technology with corresponding manufacturing variations, a processing frequency capability
of said central processing unit and a speed of said
ring oscillator variable speed system clock varying
together due to said manufacturing variations and
due to at least operating voltage and temperature of
said single integrated circuit: an on-chip input/output
interface connected to exchange coupling control
signals, addresses and data with said central
processing unit: and a second clock independent of
said ring oscillator variable speed system clock connected to said input/output interface.
65 (Four Times Amended). In a microprocessor
integrated circuit, a method for clocking the microprocessor within the integrated circuit, comprising the
steps of:
providing an entire ring oscillator system clock
constructed of electronic devices within the integrated circuit, said electronic devices having operating characteristics which will, because said entire
ring oscillator system clock and said microprocessor
are located within the same integrated circuit, vary
together with operating characteristics of electronic
devices included within the microprocessor, [and]
using the ring oscillator system clock for clocking
the microprocessor, said microprocessor operating at
a variable processing frequency dependent upon a
variable speed of said ring oscillator system clock;
providing an on chip input/output interface for
the microprocessor integrated circuit: and clocking

App.111a
the input/output interface with a second clock
independent of the ring oscillator system clock.
73 (Four Times Amended). A microprocessor system comprising:
a central processing unit disposed upon an integrated circuit substrate, said central processing unit
operating at a processing frequency and being constructed of a first plurality of electronic devices;
an entire oscillator disposed upon said integrated
circuit substrate and connected to said central processing unit, said oscillator clocking said central
processing unit at a clock rate and being constructed
of a second plurality of electronic devices, thus varying
the processing frequency of said first plurality of
electronic devices and the clock rate of said second
plurality of electronic devices in the same way as a
function of parameter variation in one or more
fabrication or operational parameters associated with
said integrated circuit substrate, thereby enabling
said processing frequency to track said clock rate in
response to said parameter variation;
an on-chip input/output interface, connected
between said central processing unit and an external
memory bus for facilitating exchanging coupling control
signals, addresses and data with said central processing
unit; and
an external clock independent of said oscillator
connected to said input/output interface wherein said
external clock is operative at a frequency independent
of a clock frequency of said oscillator.
78 (Three Times Amended). In a microprocessor
system including a central processing unit, a method

App.112a
for clocking said central processing unit comprising
the steps of:
providing said central processing unit upon an
integrated circuit substrate, said central processing
unit being constructed of a first plurality of transistors
and being operative at a processing frequency;
providing an entire variable speed clock disposed
upon said integrated circuit substrate, said variable
speed clock being constructed of a second plurality of
transistors; [and]
clocking said central processing unit at a clock
rate using said variable speed clock with said central
processing unit being clocked by said variable speed
clock at a variable frequency dependent upon variation
in one or more fabrication or operational parameters
associated with said integrated circuit substrate, said
processing frequency and said clock rate varying in
the same way relative to said variation in said one or
more fabrication or operational parameters associated with said integrated circuit substrate;
connecting an on-chip input/output interface
between said central processing unit and an external
memory bus, and exchanging coupling control signals,
addresses and data between said input/output interface
and said central processing unit; and
clocking said input/output interface using an
external clock is operative at a frequency independent
of a clock frequency of said oscillator.
Cancel Claim 20, 66, 75, and 79.

App.113a
REMARKS
In the April 23, 1998 telephone call, the Examiner
indicated that placing the limitations of dependent
claims 20, 66, 75 and 79 into their respective parent
claims would place the application in condition for
allowance Applicants have accepted this proposal by
submission of this amendment by facsimile, since
adding these changes by Examiner’s Amendment would
have been cumbersome.
This application is now believed to be in condition
for allowance, and allowance is solicited.
Respectfully submitted,
Cooley Godward LLP
/s/ Willis E. Higginis
Reg. No. 23,025
Five Palo Alto Square
Palo Alto, CA 94306-2155
Telephone: (650) 843-5145

